Report No. D-2007-127          September 25, 2007




     Navy's Proposed Business Plan for Base
         Realignment and Closure 2005
              Recommendation 184
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                              ODIG-AUD (ATTN: Audit Suggestions)
                              Department of Defense Inspector General
                              400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704




Acronyms
BRAC                  Base Realignment and Closure
COBRA                 Cost of Base Realignment Actions
FTE                   Full-Time Equivalent
JCSG                  Joint Cross-Service Group
NAS                   Naval Air Station
NAWC                  Naval Air Warfare Center
NBVC                  Naval Base Ventura County
NSWC                  Naval Surface Warfare Center
NWS                   Naval Weapons Station
OSD                   Office of the Secretary of Defense
RDAT&E                Research, Development & Acquisition, Test & Evaluation
TJCSG                 Technical Joint Cross-Service Group
W&A                   Weapons and Armaments
                             INSPECTOR GENERAL

                            DEPARTMENT OF DEFENSE

                              400 ARMY NAVY DRIVE

                         ARLINGTON, VIRGINIA 22202-4704





                                                                      September 25, 2007

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                 TECHNOLOGY, AND LOGISTICS
               NAVAL INSPECTOR GENERAL


SUBJECT: Report on Navy's Proposed Business Plan for Base Realignment and Closure
         2005 Recommendation 184 (Report No. D-2007-127)


       We are providing this report for your review and comment. The Under Secretary
of Defense for Acquisition, Technology, and Logistics did not respond to the draft report;
however, we considered comments from the Navy when preparing the final report,

       DoD Directive 7650.3 requires that all recommendations be resolved promptly.
The Secretary of the Navy comments were partially responsive. We request additional
comments from the Secretary of the Navy on Recommendation 1.b, Also, we request that
the Under Secretary of Defense for Acquisition, Technology, and Logistics provide
comments on Recommendation 2. The comments should be received by
October 25,2007,

        If possible, please send management comments in electronic format (Adobe
Acrobat file only) to AUDACM@dodig,miL Copies of the management comments must
contain the actual signature of the authorizing officiaL We cannot accept the / Signed /
symbol in place of the actual signature, If you arrange to send classified comments
electronically, they must be sent over the SECRET Internet Protocol Router Network
(SIPRNET).

       We appreciate the courtesies extended to the staff. Questions should be directed
to Ms. Deborah Culp at (703) 604-9335 (DSN 664-9335) or Ms. Bobbie Sau Wan at
(703) 604-9259 (DSN 664-9259), See Appendix G for report distribution. The team
members are listed inside the back cover.

                               By direction of the Deputy Inspector General for Auditing:


                                 ~/3 J&/~ff'-/~
                                           Richard B. Jolliffe

                                     Assistant Inspector General

                                 Acquisition and Contract Management

                Department of Defense Office of Inspector General
Report No. D-2007-127                                                      September 25, 2007
    (Project No. D2006-D000CG-0194.000)

          Navy’s Proposed Business Plan for Base Realignment and 

                    Closure 2005 Recommendation 184 


                                   Executive Summary 


Who Should Read This Report and Why? DoD officials involved in the Base
Realignment and Closure (BRAC) process should read this report. This report addresses
the Navy’s proposed business plan for BRAC 2005 Recommendation 184 to create a
Naval Integrated Weapons & Armaments (W&A) Research, Development & Acquisition,
Test & Evaluation (RDAT&E) Center.

Background. Former Congressman William M. Thomas and Congressman Elton
Gallegly requested that the DoD Office of Inspector General review the Navy’s proposed
business plan for consistency with BRAC 2005 Recommendation 184 to create a Naval
Integrated W&A RDAT&E Center. In addition, the DoD Office of Inspector General
received a similar request from Marshall “Chip” Holloway, the mayor of Ridgecrest,
California.

BRAC 2005 Recommendation 184 realigns seven locations to Naval Air Warfare Center
China Lake, California; and one location each to Naval Surface Warfare Center
Dahlgren, Virginia; and Naval Surface Warfare Center Indian Head, Maryland. The
Technical Joint Cross-Service Group Cost of Base Realignment Actions report for
Recommendation 184,* dated May 3, 2005, realigned 2,043 Navy civilian full-time
equivalents (FTE). The August 3, 2005, Cost of Base Realignment Actions report
created by the Technical Joint Cross-Service Group for the BRAC Commission realigned
1,741 Navy civilian FTEs. The BRAC Commission did not modify the DoD
recommendation; however, the BRAC Commission added a provision that the Navy
should realign for optimum effectiveness rather than narrow compliance with Cost of
Base Realignment Actions numbers.

The Chairman of the Infrastructure Steering Group required that business plans be
completed for the implementation of BRAC 2005 recommendations. The Navy
submitted proposed business plans for BRAC 2005 Recommendation 184 for approval in
December 2005 and June 2006. Navy officials prepared a subsequent draft business plan
and provided it to the Department of Defense Inspector General audit team in
February 2007. Navy officials submitted the updated business plan to the Deputy Under
Secretary of Defense for Installations and Environment for approval in April 2007. The

_____________________________
*
 The Technical Joint Cross-Service Group’s TECH 18D scenario became BRAC Commission
Recommendation 184. The Technical Joint Cross-Service Group used TECH 18D scenario data for the
Cost of Base Realignment Actions report.
Navy’s April 2007 proposed business plan realigns 730 civilian FTEs. On May 21, 2007,
the Deputy Under Secretary of Defense for Installations and Environment rejected the
Navy’s proposed business plan for BRAC 2005 Recommendation 184 on the basis that it
included insufficient information to conduct an analysis of the exclusions and workload
adjustments.

Results. Navy officials did not provide adequate documentation to support the Navy’s
April 2007 proposed business plan for BRAC 2005 Recommendation 184. The Navy’s
proposed business plan realigns only 730 civilian FTEs of the 1,741 civilian FTEs the
August 3, 2005, Cost of Base Realignment Actions report slated for realignment. Due to
the lack of sufficient documentation, we were not able to determine the extent to which
the Navy’s April 2007 proposed business plan is consistent with the approved
BRAC 2005 Recommendation 184. Also, we are not able to determine the number of
civilian FTEs that should be realigned under this recommendation.

The Navy internal controls were not adequate. We identified internal control weaknesses
in the supporting documentation of FTEs in Navy’s December 2005, June 2006, and
April 2007 proposed business plans for BRAC 2005 Recommendation 184. We did not
consider the internal control weaknesses to be material. (See the Finding section for the
detailed recommendations.)

In order to effectively implement BRAC 2005 Recommendation 184, the Navy should
provide the Secretary of Defense with adequate documentation to explain deviations from
the BRAC Commission Report and certify that the realignment of civilian FTEs meets
the intent of the BRAC Commission recommendation. The Under Secretary of Defense
for Acquisition, Technology, and Logistics should ensure that Navy officials correct the
errors in civilian FTEs realigned by BRAC 2005 Recommendation 184 before approving
the business plan. In addition, the Under Secretary of Defense for Acquisition,
Technology, and Logistics and the Navy should consider the civilian reductions already
taken before realizing additional efficiencies. See the Finding section for additional
information.

Management Comments. We issued a draft report, for comment, on June 15, 2007. We
received comments from the Deputy Assistant Secretary of the Navy (Installations and
Facilities), responding for the Secretary of the Navy. Although the Deputy Assistant
Secretary of the Navy (Installations and Facilities) concurred with the recommendations,
he disagreed with portions of the finding concerning adequate documentation, deviations
in numbers of FTEs, technical judgments, and efficiency reductions. We considered the
comments partially responsive because they did not directly address consideration of the
reduction in Navy civilian personnel over the last 3 years before applying additional
efficiency reductions. Therefore, we ask that the Secretary of the Navy provide
additional comments in response to the final report identifying specific actions taken to
address the consideration of the reduction in Navy civilian personnel over the last 3 years
before applying additional efficiency reductions. See the Finding section for a discussion
of the management comments and the Management Comments section for the complete
text of the comments.

We did not receive comments from the Under Secretary of Defense for Acquisition,
Technology, and Logistics. Therefore, we ask the Under Secretary of Defense for
Acquisition, Technology, and Logistics to provide comments to the final report
identifying specific actions taken to address the reduction in Navy civilian FTEs and
ensure that Navy officials correct the errors in civilian FTEs to be realigned before
approving the business plan. Comments to this report should be received by
October 25, 2007.

                                            ii
Table of Contents 


Executive Summary 	                                                    i

Background 	                                                           1

Objective 	                                                            5

Review of Internal Controls 	                                          5

Finding
      Assessment of Navy’s Proposed Business Plan for BRAC 2005
       Recommendation 184                                              6

Appendixes
      A. Scope and Methodology 	                                      23
           Prior Coverage                                             25
      B. Congressman William M. Thomas Request 	                      26
      C. Congressman Elton Gallegly Request 	                         28
      D. Mayor Marshall Holloway Request 	                            30
      E. BRAC 2005 Recommendation 184: Create a Naval Integrated
           Weapons & Armaments Research, Development & Acquisition,
           Test & Evaluation Center                                   31
      F. Installation Submittals for the Business Plan Process 	      36
      G. Report Distribution 	                                        41

Management Comments
      Navy         	                                                  43
Background 

    This audit was performed in response to requests from former Congressman
    William M. Thomas,1 Congressman Elton Gallegly, and Mayor Marshall “Chip”
    Holloway (See Appendixes B, C, and D) to review the Navy’s proposed business
    plan for consistency with the Base Realignment and Closure (BRAC) 2005
    Recommendation 184 to create a Naval Integrated Weapons & Armaments
    (W&A) Research, Development & Acquisition, Test & Evaluation (RDAT&E)
    Center.

    Base Realignment and Closure 2005. Congress authorized the BRAC process
    as a way for DoD to reorganize its base structure to more efficiently and
    effectively support our forces, increase operational readiness, and facilitate new
    ways of doing business. DoD previously had BRAC rounds in 1988, 1991, 1993,
    and 1995. Congress and DoD designed the BRAC process to be objective, open,
    and fair. Also, recommendations were measured against eight unique criteria
    subject to congressional review and public comment.

    During BRAC 2005, the Secretary of Defense chartered seven Joint Cross-Service
    Groups (JCSG) to make realignment and closure recommendations related to
    common business-oriented support functions. Each of the JCSGs had
    representatives from the Military Services, the Office of the Secretary of Defense
    (OSD), and the Joint Staff, as analytical proponents with exclusive authority to
    make recommendations related to assigned support functions. The JCSGs
    generated a significant portion of the overall recommendations.

    DoD forwarded the recommendations as part of a comprehensive report to the
    independent BRAC Commission on May 13, 2005. The BRAC Commission held
    deliberations to review the recommendations and made its own recommendations
    in a report to the President on September 8, 2005. The President approved the
    Commission recommendations on September 15, 2005, and forwarded the report
    to Congress. The recommendations became law on November 8, 2005. The
    Defense Base Closure and Realignment Act of 1990, as amended, requires the
    Secretary of Defense to initiate all closures and realignments no later than 2 years
    after the date on which the President transmits a report to Congress
    (September 15, 2005) containing the recommendations for closures and
    realignments.

    Cost of Base Realignment Actions. The Cost of Base Realignment Actions
    (COBRA) is an economic analysis model that estimates costs and savings
    associated with a proposed base closure or realignment action. The BRAC 2005
    COBRA model is an updated version of COBRA models used in previous BRAC
    rounds. The COBRA model calculates the costs and savings of scenarios over a
    20-year period. Reports from the COBRA model contain information on the
    movement of personnel, construction costs, and the 20-year net present value for
    each of the proposed actions. The Technical Joint Cross-Service Group (TJCSG)

    ______________________________
    1
        Congressman Kevin McCarthy succeeded Congressman William M. Thomas in January 2007.



                                             1

ran reports from the COBRA model based on certified data for scenario
assumptions. According to the TJCSG, the May 3, 2005, COBRA model report
that realigned 2,043 civilian full-time equivalents (FTE)2 for
Recommendation 184, was the last report based on certified data. The TJCSG ran
additional COBRA model reports for the BRAC Commission during its
deliberations based on Commission-driven changes to the certified data. The
BRAC Commission used the August 3, 2005, COBRA model report to generate
the data included in the BRAC Commission report.

Defense Technology Area Plan. The Defense Technology Area Plan presents
the Department of Defense objectives and investment strategy for those
technologies critical to Defense acquisition plans, service warfighter capabilities,
and joint warfighting needs. The weapons technology area includes efforts
devoted to armament and electronic warfare technologies for all new and
upgraded non-nuclear weapons. The weapons area consists of 12 sub-areas
grouped in three broad categories: conventional weapons, directed-energy
weapons, and electronic warfare weapons.

BRAC 2005 Recommendation 184. The BRAC Commission’s
Recommendation 184 realigns seven locations to Naval Air Warfare Center China
Lake, California; and one location each to Naval Surface Warfare Center
Dahlgren, Virginia; and Naval Surface Warfare Center Indian Head, Maryland.
BRAC Commission Recommendation 184 is entitled “Create a Naval Integrated
Weapons & Armaments Research, Development & Acquisition, Test and
Evaluation Center” (see Appendix E for details of the recommendation).

The BRAC Commission did not change the DoD recommendation after hearing
community concerns, but rather added a statement to the finding section of the
recommendation in the 2005 Defense Base Closure and Realignment Commission
Report.3 The BRAC Commission stated in the finding section that,
        However, the Commission was not able to reconcile the large
        differences between the number of affected personnel as proposed by
        DoD with the number of personnel identified by the community,
        primarily the number of people needed to support the Sea Range [test
        and evaluation complex]. The Commission urges the Secretary of the
        Navy, during the implementation process, to realign the Naval
        Integrated Weapons and Armaments RDAT&E functions for optimum
        effectiveness, rather than for narrow compliance with COBRA
        personnel numbers.



_____________________________
2
 FTE is defined by the Office of Management and Budget as the total number of hours worked
(or to be worked) divided by the number of compensable hours applicable to each fiscal year.
3
 The 2005 Defense Base Closure and Realignment Commission Report is hereafter referred to as
the BRAC Commission Report.




                                          2

Requirement for Business Plans. The Chairman of the Infrastructure Steering
Group issued two memorandums in regards to business plans. The first
memorandum, on September 21, 2005, required the completion of business plans
for implementing BRAC 2005 recommendations. Chairpersons of the JCSGs
functioned as consultants and reviewed the business plans. The Infrastructure
Steering Group Chairman recommended the submission of all business plans to
the Installation Capabilities Council by November 15, 2005. The second
memorandum, on October 12, 2005, reiterated November 15, 2005, as the
deadline for submission of business plans. The Chairman also wrote in the
second memorandum that the Infrastructure Steering Group will approve all
BRAC 2005 business plans. The business plans will serve as source material for
the budget justification documentation provided to Congress to support spending
the FY 2006 BRAC appropriation and in support of future budget submissions by
the President.

Navy’s Business Plan Process. The BRAC Commission’s Recommendation 184
affects 10 locations and 3 commands. These commands are the Naval Air
Systems Command, Naval Sea Systems Command, and Commander, Naval
Installations Command.

Naval Air Systems Command is the headquarters activity for W&A RDAT&E
functions for the following locations:

        •   Naval Base Ventura County (NBVC) Point Mugu, California;

        •   Naval Air Station (NAS) Patuxent River, Maryland; and

        •   Naval Air Warfare Center (NAWC) China Lake, California.4

The Naval Sea Systems Command is the Headquarters activity for W&A
RDAT&E functions at the remaining seven locations:

        •   NBVC Port Hueneme, California;5
        •   Naval Surface Warfare Center (NSWC) Crane, Indiana;

        •   NSWC Dahlgren, Virginia;

        •   NSWC Yorktown, Virginia;

        •   NSWC Indian Head, Maryland;
_____________________________
4
 The BRAC Commission Report referred to NAWC China Lake as the Naval Air Weapons
Station China Lake.
5
 NBVC is composed of both NBVC Point Mugu, California; and NBVC Port Hueneme,
California. The BRAC Commission Report lists NBVC realignment FTEs together as one line
item.




                                        3

           •	 Naval Weapons Station (NWS) Seal Beach, California; and

           •	 Fleet Combat Training Center (Port Hueneme Detachment San Diego,
              California).6

The Naval Air Systems Command and the Naval Sea Systems Command obtained
FTE7 data from the nine locations realigning under this recommendation. Naval
Air Systems Command and Naval Sea Systems Command officials revised and
consolidated the data before submission to the Commander, Naval Installations
Command. The Commander, Naval Installations Command compiled the
proposed business plan for submission to the Office of the Deputy Under
Secretary of Defense for Installations and Environment.

Infrastructure Steering Group Memorandum. On January 15, 2007, the
Infrastructure Steering Group Chairman issued a memorandum that directed the
Secretary of the Navy to retain 463 work years that are necessary for the Sea
Range test and evaluation complex at NBVC Point Mugu. Specifically, the
memorandum stated that NBVC Point Mugu retain the following work years
necessary to operate the Sea Range:

           •	 279 work years for the Sea Range,

           •	 124 work years for Target Operations,

           •	 14 work years for Radar Cross Section,

           •	 32 work years for Sea Range Aircraft, and

           •	 14 work years for Indirect Support.

In addition, the memorandum also specified that the target logistics functions are
not necessary to operate the range; therefore, the associated work years should
realign to NAWC China Lake. Although the memorandum mentioned very
specific functional areas of contention, the Infrastructure Steering Group
memorandum did not address all Navy functions under consideration.

Department of the Navy, Office of the Assistant Secretary Memorandum. On
January 6, 2007, the Department of the Navy, Office of the Assistant Secretary
for Installations and Environment Associate General Counsel analyzed and
concluded that specific Naval Sea Systems functions are excluded from relocating
to NAWC China Lake under 2005 BRAC Commission Recommendation 184.
The Navy Associate General Counsel’s memorandum excluded functions from
realignment and, in some cases, concurred with the Navy’s decision as being
legally acceptable.

_____________________________
6
The TJCSG COBRA report referred to Fleet Combat Training Center (Port Hueneme
Detachment San Diego, California) as Point Loma.
7
    FTE refers to civilian FTEs in this report.



                                                  4

           Subsequently on February 21, 2007, the Department of Navy, Office of the
           Assistant Secretary for Installations and Environment Assistant General Counsel
           issued a memorandum addressing the exclusion of additional functions from
           realignment based on the BRAC 2005 Recommendation 184. The Navy Assistant
           General Counsel concluded in his memorandum that the exclusion from
           realignment to NAWC China Lake of the functions was legally acceptable.


Objective
           Our overall audit objective was to evaluate the Navy’s implementation plan8 for
           consistency with the Commission-approved recommendation. See Appendix A
           for a discussion of the scope and methodology and prior audit coverage.


Review of Internal Controls
           We identified internal control weaknesses for the Navy as defined by DoD
           Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,”
           January 4, 2006. Navy officials did not have adequate internal controls in place
           to provide sufficient documentation to support the December 2005, June 2006,
           and April 2007 proposed business plans for BRAC 2005 Recommendation 184.
           We did not consider the internal control weaknesses to be material. Implementing
           Recommendation 1.a. should provide the Office of the Under Secretary of
           Defense for Acquisition, Technology, and Logistics the necessary supporting
           documentation to approve the business plan. See the Finding section of the report
           for a detailed discussion on the internal controls.




_____________________________
8
    Also referred to as a business plan.



                                               5

           Assessment of Navy’s Proposed Business
           Plan for BRAC 2005 Recommendation 184
           The Navy did not adequately support the number of FTEs in its proposed
           business plan for the BRAC 2005 Recommendation 184 to create a Naval
           Integrated W&A RDAT&E Center. The Navy’s proposed business plan
           realigns only 730 of the 1,741 FTEs stated in the August 3, 2005, COBRA
           report run for the BRAC Commission by the Technical Joint Cross-
           Service Group. We were not able to determine the extent to which the
           Navy’s proposed business plan was consistent with Recommendation 184
           of the 2005 BRAC law because of insufficient documentation, lack of
           justification for efficiency reductions, and omissions in the proposed
           business plan.

                  •	 Navy management at installations affected by this
                     recommendation did not accurately account for and provide
                     sufficient documentation for the number of realigning FTEs or
                     the number of FTEs excluded from the realignment.

                  •	 The Navy reduced the civilian workforce over the past 3 years
                     as indicated in the President’s budgets.

           As a result, we cannot determine the number of FTEs that should be
           realigned by the Navy under this recommendation.


Documentation
    Navy officials did not provide adequate documentation to support their 

    April 2007 proposed business plan for the realignment of FTEs for BRAC 2005 

    Recommendation 184. In addition, Navy officials did not provide adequate

    documentation to support their December 2005 or June 2006 proposed business 

    plans that OSD previously rejected. Due to the lack of sufficient documentation, 

    we were not able to determine the extent to which the Navy’s April 2007 

    proposed business plan was consistent with the BRAC Commission-approved 

    recommendation. 


    BRAC Commission Appendix K Correlation to the TJCSG August 3, 2005,

    COBRA. On August 3, 2005, the TJCSG used the COBRA model to create a 

    report on behalf of the BRAC Commission. The BRAC Commission utilized this 

    COBRA report for inclusion in the BRAC Commission Report Appendix K: 

    Department of Defense Proposed 2005 Realignment and Closure List. 

    Appendix K of the BRAC Commission Report reflected the net change in FTEs to 

    be realigned for each location affected by BRAC 2005 Recommendation 184. 

    The BRAC Commissioners reflected 2,321 FTEs for realignment in 

    Recommendation 184 Appendix K. 





                                        6

           During the BRAC Commission deliberation process, the BRAC commissioners
           asked the TJCSG to provide data indicating the minimum number of FTEs
           required to operate the Sea Range and targeting operations at NBVC Point Mugu
           for operational necessity and efficiency. The TJCSG responded with 355 FTEs
           and later issued a formal letter to the BRAC Commission dated August 18, 2005.
           The BRAC Commission included the 355 FTEs in Appendix K; however, the
           355 FTEs were not included in the August 3, 2005, COBRA report. The
           August 3, 2005, COBRA report included 82 FTE additions and 307 FTE
           eliminations due to the realignment. The BRAC Commission Appendix K and
           the August 3, 2005, COBRA report both reflected a realignment of 1,741 FTEs
           after additions, eliminations, and adjustments were considered. See Table 1 for
           the correlation between the BRAC Commission Appendix K and the
           August 3, 2005, COBRA report.


              Table 1. Correlation Between Commission Report Appendix K and 

                               August 3, 2005, COBRA Report 


                           Commission        FTE             FTE        Other      8-3-05
Location                   Appendix K      Additions     Eliminations Adjustments COBRA1

NBVC                           1,679                         -199             -3552    1125
NSWC Crane                      227                           -34                       193
NSWC Dahlgren                    133           40             -26                       147
NAS Patuxent
 River                          110                            -16                       94
NSWC Indian Head                 52             42             -14                       80
NWS Seal Beach                   24                             -4                       20
NSWC Yorktown                    49                             -7                       42
Fleet Combat
 Training Center
 San Diego                        47           ___              -7            ____       40
Total
                               2,321           82            -307             -355     1741

1
    The August 3, 2005, COBRA report was run for the BRAC Commission by the TJCSG.
2
    355 FTEs is from the TJCSG Memorandum to the BRAC Commission on August 18, 2005.



           August 3, 2005, COBRA Report Comparison With Navy’s Proposed Business
           Plan. Navy Headquarters officials did not provide adequate documentation for
           the April 2007 proposed business plan to justify the differences in realigning
           FTEs from the August 3, 2005, COBRA report. We compared the
           August 3, 2005, COBRA report with Navy’s April 2007 proposed business plan
           and identified differences in the number of FTEs slated for realignment. The
           Navy’s proposed business plan for Naval Sea Systems Command internal
           realignments of NSWC Yorktown and Fleet Combat Training Center San Diego


                                                 7

        remained virtually unchanged from the August 3, 2005, COBRA report. The
        Navy’s April 2007 proposed business plan realigned 730 FTEs, whereas the
        August 3, 2005, COBRA report realigned 1,741 FTEs, a difference of 929 FTEs.
        The Navy provided insufficient documentation to support its determinations to
        reduce the number of FTEs for the seven Navy realigned installations. The
        Navy’s April 2007 proposed business plan realigned 648 FTEs to NAWC China
        Lake, whereas, the August 3, 2005, COBRA report realigned 1,659 FTEs to
        NAWC China Lake. See Table 2 for a comparison of the FTEs realignments by
        location and date for BRAC 2005 Recommendation 184.


     Table 2. FTE Movement Comparison for BRAC 2005 Recommendation 184

                      TJCSG        Commissio           Dec-05         June-06         April-07
                      COBRA        n COBRA            Business        Business        Business
Location               5-3-05        8-3-05             Plan           Plan            Plan

NBVC1                     1,427          1,125
 Point Mugu                                             448              448             378
 Port Hueneme                                           361              361              65

NSWC Crane                  193            193          193              193               94
NSWC Dahlgren               147            147          147              147               23
NAS Patuxent                 94             94           94               94               39
 River
NSWC Indian                  80             80            80              80               38
 Head
NWS Seal Beach               20             20            20              20               11

Realigning to
 China Lake               1,961          1,659         1,343            1,343            648

NSWC                         42             42            37               37              41
Yorktown2
Fleet Combat
 Training Center
 San Diego3                  40             40            48              48               41

Total                     2,043          1,741         1,428           1,428             730
1
  NBVC is composed of both NBVC Point Mugu, California; and NBVC Port Hueneme, California. The 

BRAC Commission Report and the TJCSG COBRA report lists NBVC realignment FTEs together as one 

line item.

2
  Realigning to NSWC Indian Head. 

3
  Realigning to NSWC Dahlgren.





                                                 8

Navy’s Business Plan Submissions. OSD has not approved the Navy’s business
plan for BRAC 2005 Recommendation 184, more than a year and a half after the
business plan process started. OSD stated that the business plan was rejected
because the Navy did not provide sufficient documentation to support the
realignment of FTEs. As of May 31, 2007, OSD had not approved the business
plan for BRAC 2005 Recommendation 184, which is one out of three business
plans that remain unapproved. For BRAC 2005, OSD was responsible for
reviewing and approving 237 business plans, of which 3 remain unapproved,
15 are currently on hold, and 219 have been approved. The Navy did not provide
adequate documentation to support any of the three proposed business plans for
BRAC 2005 Recommendation 184 submitted to OSD. The Navy submitted the
initial business plan to OSD in December 2005. OSD rejected that business plan
based on the proposed reduced realignment scope and increased costs. The Navy
submitted a revised Navy business plan to OSD in June 2006. OSD rejected that
plan too. Subsequently, Navy officials prepared a revised draft business plan and
provided the plan to our auditors in February 2007. In April 2007, Navy officials
submitted the February 2007 draft business plan to OSD. The Navy did not
change the proposed April 2007 business plan realigning FTEs from the
February 2007 draft business plan provided to the auditors. On May 21, 2007, the
Deputy Under Secretary of Defense for Installations and Environment rejected the
Navy’s proposed business plan for BRAC 2005 Recommendation 184 on the
basis that it included insufficient information to conduct an analysis of the
exclusions and workload adjustments. See Table 3 for the status of the business
plan submissions.


       Table 3. Status of Navy’s Business Plan Submissions for 

                  BRAC 2005 Recommendation 184 


Business Plan              Submitted to OSD                     Status

December 2005                      Yes                         Rejected
  June 2006                        Yes                         Rejected
  April 2007                       Yes                         Rejected




The Navy updated the April 2007 proposed business plan from the June 2006
proposed business plan to include determinations made in the January 15, 2007,
Infrastructure Steering Group memorandum regarding the NBVC Point Mugu Sea
Range. The Navy also included determinations made in the January 6, 2007, and
the February 21, 2007, Assistant Secretary of the Navy Associate General
Counsel and Assistant General Counsel memorandums. In addition, the Navy’s
April 2007 proposed business plan more accurately reflects the Navy’s realigned
installation submittals for the business plan process. However, Navy officials did
not include adequate documentation in the proposed business plan to support the
FTEs excluded from realignment.




                                    9

Deviations in Numbers of Full-Time Equivalents 

     Navy officials deviated from the Commission-approved recommendation in
     determining the number of FTEs realigned by BRAC 2005 Recommendation 184.
     The Navy realigning installations did not properly account for the FTEs realigned
     for and excluded by BRAC 2005 Recommendation 184. The Navy reduced the
     number of FTEs as reflected by the President’s budgets; however, Navy officials
     were unable to provide the documentation used to determine the number of W&A
     RDAT&E FTEs affected by these reductions.

     Navy Realigning Installations Submittals for the Business Plan Process.
     Navy officials at the installations realigned by BRAC 2005 Recommendation 184
     did not properly account for the number of FTEs realigning nor the number of
     FTEs excluded from the realignment. From the time of the TJCSG scenario data
     call to the time of the Navy installation submittals for the business plan process,
     the Navy realigning installations reduced the number of FTEs for realignment
     from 2,477 to 610, a reduction of 1,867 FTEs.9 Managers at the Navy realigned
     installations provided documentation to support the FTE reduction based on
     management’s technical judgment of W&A RDAT&E work, management’s
     interpretations of BRAC Commission intentions, and TJCSG’s recommended
     efficiency reduction of 15 percent. In addition, Navy management at realigned
     installations used nonstandardized time periods, inaccurate mathematical
     calculations, and nonstandardized management information systems in its
     determinations.

     As a result, we were not able to confirm the accuracy or the methodology used to
     determine FTEs for realignment to NAWC China Lake. In addition, we were not
     able to determine whether the Navy installation submittals were forwarded to
     Naval Air Systems Command and Naval Sea Systems Command Headquarters
     and if they were, whether or not the installation submittals were used by Navy
     Headquarters officials for inclusion in the business plans. Table 4 shows a
     comparison of the TJCSG initial scenario data call submissions with the
     installation submissions for the business plan process. See Appendix F for further
     information on the Navy realigned installations exclusions from the business plan
     submittal and the exclusions allowed by the Commission Report.10



     ____________________________
     9
      The Navy’s April 2007 proposed business plan realignment of 730 FTEs more accurately reflects
     the Navy’s installation submittals for the business plan process than the previous two Navy
     business plan submittals, which OSD also rejected.
     10
       The Navy’s proposed business plan FTEs for the NSWC Yorktown realignment to NSWC
     Indian Head and the Fleet Combat Training Center (Port Hueneme Detachment, San Diego)
     realignment to NSWC Dahlgren remained virtually unchanged from the initial scenario
     submission. Therefore, we excluded NSWC Yorktown and Fleet Combat Training Center (Port
     Hueneme Detachment, San Diego) from discussion of the Navy installation submittals.




                                              10 

       Table 4. 	Comparison of the Navy Realigned Installation Submittals for the
                 Business Plan Process to the TJCSG Scenario Data Call

                                          TJCSG Scenario                        Installation
Location                                    Data Call                           Submittals*

NBVC Point Mugu                                   1254                                 294
NBVC Port Hueneme                                  425                                  70
NAS Patuxent River                                 118                                  39
NSWC Crane                                         389                                  60
NSWC Dahlgren                                      173                                  98
NSWC Indian Head                                    94                                  38
NWS Seal Beach                                      24                                  11

Total                                             2477                                 610
Reduction                                                                             1867
*We were not able to determine whether the Navy installation submittals were forwarded to Naval Sea
Systems Command and Naval Air Systems Command Headquarters and if they were, whether or not the
installation submittals were used by Navy Headquarters officials for inclusion in the business plans.



        Managers’ Technical Judgments of W&A RDAT&E. Navy officials at
        realigned installations stated that they used managers’ technical judgment when
        determining the number of FTEs conducting W&A RDAT&E work for
        realignment to NAWC China Lake, in lieu of personnel information systems that
        provide traceable data. Management at the Navy realigned installations stated
        that personnel information systems did not exist for tracking W&A RDAT&E
        FTEs. Therefore, many Navy realigning installations stated that their managers
        used a variety of management information systems to align workload information
        and corresponding personnel with Defense Technology Area Plan definitions. In
        addition, Navy realigning installations stated that they used managers’ technical
        opinions to determine the percentage of time each individual worked on W&A
        RDAT&E projects. Management at the Navy realigned installations did not
        adequately document its judgmental decisions for the initial TJCSG scenario data
        call or the installation submittals for the business plan process. As a result, we
        were not able to verify the accuracy of the FTEs submitted for realignment to
        NAWC China Lake.

        For example, management at the Navy realigned installations stated that the
        BRAC Certifier at NBVC Point Mugu determined the number of FTEs for
        realignment based on supervisor technical opinions. The certifier stated that he
        obtained a list of civilian personnel and then solicited shop supervisors for their
        judgment on the percentage of individuals conducting W&A RDAT&E work.
        The certifier stated he applied these percentages to the personnel listing to
        calculate FTEs for realignment.


                                                  11 

Management at the Navy realigned installations stated that it used managers’
technical judgment to determine the number of civilians conducting W&A
RDAT&E work when updating FTEs for realignment. When updating the
number of FTEs to realign to NAWC China Lake for the business plan process,
Navy management stated that its managers excluded 1,091 FTEs for essential
services and 283 FTEs for workload reductions. It stated that their managers
excluded the FTEs based on their own technical judgment. However, Navy
management did not adequately document these decisions. For this reason, we
were not able to verify the accuracy of the updated number of FTEs realigning to
NAWC China Lake. See Appendix F Tables F-2 and F-3 for details on FTEs
excluded by the installations for essential functions and workload reductions.

        Interpretations of BRAC Commission Intentions. NSWC Crane
installation management stated that it used numerous documents to dispute the
BRAC Commission intentions for functions excluded from realignment, therefore
eliminating additional FTEs from realignment to NAWC China Lake in the
installation submission for the business plan process. NSWC Crane management
used TJCSG meeting minutes, point papers, and other BRAC 2005
recommendations to interpret the intentions of the BRAC Commission for its
installation submittal for the business plan process. NSWC Crane management
used the interpretations to exclude an additional 94 FTEs from realignment to
NAWC China Lake. Therefore, management at NSWC Crane submitted for the
business plan process FTEs for realignment that were not consistent with
BRAC 2005 Recommendation 184.

For example, NSWC Crane management stated that because the BRAC
Commission eliminated the program management function under a similar
recommendation, the intention was to eliminate the function in
Recommendation 184 as well. Managers also provided point papers that stated
the program management function at NSWC Crane was erroneously included and
realignment of this function would break existing synergies. However, the BRAC
Commission did not provide for the exclusion of this function in the approved
recommendation language.

        Efficiency Reductions. The Navy realigned installations were not
consistent with each other when calculating the efficiency reduction, thereby
understating the number of realigning FTEs. In its COBRA report, TJCSG
allowed for a 15 percent reduction, for efficiencies as a result of the realignment.
For this reason, five of the seven Navy realigned installations eliminated the
15 percent of FTEs in their installation submittals for the business plan process
from realignment to NAWC China Lake. This resulted in a reduction of 56 FTEs.
See Appendix F Table F-5 for further information on the FTEs excluded for
efficiency reductions.

NBVC Port Hueneme management, however, applied the 15 percent FTE
reduction to the scenario data call FTEs, rather than realigning the FTEs, when
considering essential personnel exclusions. As a result, NBVC Port Hueneme
understated 44 FTEs for realignment to NAWC China Lake. See Table 5 for a




                                     12 

         comparison of the improper and proper application of the 15 percent efficiency
         reduction calculation. We do not believe the application of the reduction is
         practical for BRAC 2005 Recommendation 184.


   Table 5. Application of 15 Percent Efficiency Reduction at NBVC Port Hueneme

Improper Application                                   Proper Application*

FTEs in scenario data calls                 425        FTEs in scenario data calls                425
15 percent reduction                        -64
Weapons system integration                 -178        Weapons system integration               -178
Non-gun missile, pyrotechnics              -113        Non-gun missile,                         -113
                                                       pyrotechnics
                                                       FTEs to be realigned before
                                                       efficiency reduction                       134
                                                       15 percent reduction                       -20

FTEs to be realigned                          70       FTEs to be realigned                       114

Understated FTEs                              44       Understated FTEs                              0
*Proper application refers only to the correct way to calculate the efficiency reduction but does not deem
this efficiency reduction to be justified for BRAC 2005 Recommendation 184.




                  Nonstandardized Time Periods. Management at the Navy realigned
         installations did not use consistent data for the initial TJCSG scenario data call for
         the installation submittals for the business plan process. Six of the seven Navy
         realigned installations used FY 2003 personnel data when submitting responses to
         the TJCSG scenario data call. However, NSWC Crane management used
         personnel data from December 2004 for its TJCSG scenario data call response.
         NSWC Crane management then used the same December 2004 personnel data in
         its installation submittal for the business plan process. Therefore, NSWC Crane
         management did not reflect personnel adjustments from FY 2003 to FY 2005 in
         its installation submittal for the business plan process.

         In addition, two of the seven Navy realigned installations did not use FY 2005
         personnel data when updating FTEs for realignment to NAWC China Lake for the
         business plan process. Managers at NBVC Port Hueneme continued to use the
         same FY 2003 personnel data when updating FTEs for the realignment. As a
         result, the updated FTEs from NBVC Port Hueneme did not reflect personnel
         adjustments from FY 2003 to FY 2005.




                                                    13 

        Inaccurate Mathematical Calculations. Management at four of the
seven Navy realigned installations had mathematical errors in their submissions
for realigned FTEs to NAWC China Lake for the business plan process.
Management at the Navy realigned installations submitted information on
realignment FTEs that contained data errors caused by faulty spreadsheet designs,
mistakes in rounding, human error, and inaccurate percentage calculations.
Consequently, the Navy realigned installations used inaccurate FTE calculations
for the TJCSG scenario data call as well as for the updated FTEs used in the
installation submittals for the business plan process. For example, the BRAC
Certifier at NBVC Point Mugu overstated the FTEs for realignment to NAWC
China Lake in the TJCSG scenario data call. The overstatement due to human
errors consisted of 16 FTEs when adding the VX-30 Squadron and 5 FTEs when
calculating percentages of weapons personnel from the acquired personnel list.
As a result, NBVC Point Mugu management overstated the realigning FTEs. See
Appendix F Table F-4 for a breakout of the exclusions based on mathematical
errors.

       Nonstandardized Management Information Systems. The Navy did
not have a standardized management information system across all commands.
Four of the seven Navy realigned installations used multiple systems within the
command to capture personnel data. As a result, the Navy realigned installations
used nine different management information systems to capture personnel data.
Each of the systems captured data differently; therefore, in our opinion, tracking
W&A FTEs by function was not feasible.

President’s Budgets. We used the data in the President’s budgets for FY 2005
through FY 2007 to obtain the FY 2003 through FY 2005 civilian manpower
reductions for the Naval Surface Warfare Centers and Naval Air Warfare Centers.
As reflected in the President’s budgets, the Navy reduced the civilian workforce
for the Naval Surface Warfare Centers11 and the Naval Air Warfare Centers over
the past 3 years; therefore fewer FTEs exist to realign under BRAC 2005
Recommendation 184. However, the Navy did not provide documentation to
directly attribute how many of the workload reductions were from W&A
RDAT&E functions. See Table 6 for a comparison of FY 2003 and FY 2005
President’s budgets workforce figures.




_____________________________
11
 Naval Surface Warfare Center numbers also include data from the Carderock Division and the
Corona Division.




                                         14 

        Table 6. President’s Budgets Civilian Manpower Reductions

                                Naval Surface                   Naval Air
                               Warfare Centers                Warfare Centers
    Fiscal Year                  Manpower                       Manpower

       2003                          16,998                         11,483
       2005                          14,676                         10,139
    Reduction                         2,322                          1,344



           Workload Reductions. Navy officials did not provide specific W&A
   RDAT&E workload reduction documentation at the individual Navy realigning
   installations because the installations did not track data in this manner. Navy
   installation management stated that the number of realigning FTEs was reduced
   because of workload reductions but management could not provide sufficient
   documentation to support the W&A RDAT&E workload reductions. The
   President’s budgets reflect workload reductions; however, it is not sufficient
   support for the workload reductions reported by the specific Navy realigning
   installations because we are unable to directly track the reductions to W&A
   RDAT&E functions.

           Fifteen Percent Efficiency Reduction. Based on the President’s
   budgets’ reductions, we believe that Navy officials applying a 15 percent
   efficiency reduction for BRAC 2005 Recommendation 184 is excessive. The
   TJCSG allowed for a 15 percent reduction for efficiencies when calculating FTEs
   for realignment. The TJCSG assumed the efficiencies would result from the
   realignment of FTEs because of the BRAC 2005 recommendation. Each of the
   installations affected by BRAC 2005 Recommendation 184 applied this
   reduction. In realizing the President’s budgets’ reductions, the Navy may have
   already realized the efficiency reductions to be gained by the 15 percent reduction
   in BRAC 2005 Recommendation 184. Therefore, in our opinion, the 15 percent
   reduction in FTEs may be unnecessary. The Navy should consider the reductions
   in the civilian workforce before considering additional efficiencies gained by the
   realignment of W&A RDAT&E FTEs.


Summary
   The Navy did not provide sufficient documentation to support realigning FTEs in
   its April 2007 proposed business plan for BRAC 2005 Recommendation 184.
   The Navy realigning installations for BRAC 2005 Recommendation 184
   submitted data for both the TJCSG scenario data call and for the business plan
   that contained errors and misconstrued the BRAC Commission intentions. This




                                       15 

    resulted in an understatement of the FTEs realigning to NAWC China Lake. In
    addition, management at the Navy realigned installations used inconsistent data
    from various fiscal years to compile their responses.

    The President’s budgets reflect a reduction of FTEs at Naval Air and Surface
    Warfare Centers over the past 3 years. During the BRAC business plan process,
    the TJCSG allowed the Navy to reduce the realigning FTEs by 15 percent for
    efficiencies gained by the recommendation. However, with the reductions
    already reflected in the President’s budgets, we believe the Navy should have
    already realized all potential efficiencies.

    The Navy did not provide adequate documentation for deviations from the
    August 3, 2005, COBRA report. Therefore, we were unable to determine the
    extent to which the proposed business plan is consistent with the intent of the
    BRAC Commission recommendation.


Additional Information
    Navy officials did not address in their proposed April 2007 business plan whether
    the NSWC Yorktown W&A RDAT&E FTEs will be subsequently realigned to
    NAWC China Lake, thus allowing the Navy to not fully implement the intent of
    the BRAC Commission recommendation to create an integrated W&A center at
    NAWC China Lake. BRAC 2005 Recommendation 184 realigns all W&A
    RDAT&E FTEs from NSWC Yorktown to NSWC Indian Head. To implement
    the recommendation, the Navy submitted a business plan to realign all W&A
    RDAT&E FTEs from NSWC Yorktown to NSWC Indian Head. BRAC 2005
    Recommendation 184 also realigns all W&A RDAT&E FTEs, except
    gun/ammunition, underwater weapons, and energetic materials, from NSWC
    Indian Head to NAWC China Lake. However, Navy officials did not
    subsequently realign in any of the business plans for BRAC 2005
    Recommendation 184 all W&A RDAT&E functions realigned from NSWC
    Yorktown to NSWC Indian Head on to NAWC China Lake. This would
    potentially staff facilities no longer functioning at NSWC Indian Head.
    Therefore, based on the April 2007 proposed business plan, the Navy would not
    fully implement the intent of the BRAC Commission.


Management Comments on the Finding and Audit Comments
    Navy Comments on Inadequate Documentation. The Deputy Assistant
    Secretary of the Navy (Installations and Facilities) nonconcurred because all of
    the applicable data used in the BRAC planning process for Recommendation 184
    have been available to the DoD Inspector General. The sufficiency for
    determining the consistency of the Navy’s proposed business plan with the BRAC
    Commission-approved recommendation requires that the data be considered
    within the proper context. The Navy’s initial responses and the succeeding
    business plans were developed using its best sources of information. A system
    that definitively tracks W&A FTEs as a portion of the total workload was and is


                                        16 

not available. The Navy BRAC Program Management Office is coordinating
with the OSD BRAC Office to document deviations from the May 2005 COBRA
report and to update the proposed business plan.

Audit Response. We disagree with the Navy comments because the
documentation used by the Navy for the proposed business plan did not
sufficiently support the realignment of FTEs. While the Navy may have relied on
its best source of information, it was not sufficient documentation to support the
realigning FTEs in the proposed business plan for the BRAC 2005
Recommendation 184 to create a Naval Integrated W&A RDAT&E Center.
Furthermore, Navy installation management used its technical judgment but did
not adequately document its decisions for the initial TJCSG scenario data call or
the installation submittals for the business plan process. In addition, the Navy
stated in their response that they need to properly document the deviations from
the May 2005 COBRA report.

Navy Comments on Deviations in Numbers of Full Time Equivalents. The
Deputy Assistant Secretary of the Navy (Installations and Facilities)
nonconcurred because Table 4, “Comparison of the Navy Realigned Installation
Submittals for the Business Plan Process to the TJCSG Scenario Data Call,”
mixes with the Navy’s business plan FTEs both the Scenario Data Call FTEs that
do not reflect the 15 percent efficiency reduction and the TJCSG exclusions as
applied to the COBRA model. However, the Navy’s business plans FTEs
incorporate both the Scenario Data Call FTEs and the TJCSG exclusions.

Audit Response. We disagree with the Navy comments because we are not
comparing the Navy’s business plan FTEs in Table 4, “TJCSG Scenario Data
Call.” Table 4 is comparing FTEs submitted by the Navy installations for the
“TJCSG Scenario Data Call” and the “Installation Submittals.”

Navy Comments on Managers Technical Judgments of W&A RDAT&E.
The Deputy Assistant Secretary of the Navy (Installations and Facilities)
concurred that the DoD- and Navy-recognized financial systems do not capture
workload data by technical capability areas used by the TJCSG. Determining the
extent to which the Navy’s proposed business plan is consistent with BRAC 2005
Recommendation 184 requires that management judgment and supporting
documentation be considered within the proper context. The Navy BRAC
Program Management Office is working with the OSD BRAC Office to document
deviations from the May 2005 COBRA report and to update the proposed
business plan.

Audit Response. We agree with the Navy comments because the DoD- and
Navy-recognized financial systems were not designed to capture workload data
by the technical capability areas used by the TJCSG in BRAC 2005. The use of
Navy manager’s technical judgments has been used throughout the BRAC 2005
process; however, without adequate documentation of the manager’s technical
judgment decisions for the business plan process, we are not able to determine the
extent to which the Navy’s proposed business plan is consistent with BRAC 2005
Recommendation 184. Management at the Navy installations did not adequately
document its manager’s technical judgment decisions for the initial TJCSG
scenario data call or the installation submittals for the business plan process.


                                    17 

Navy Comments on the Interpretation of BRAC Commission Intentions. The
Deputy Assistant Secretary of the Navy (Installations and Facilities) concurred
that management interpretations have been used because they are legally
supported by the Navy BRAC counsel. The Recommendation 184 underlying
supporting documents were examined in an effort to clarify the language and
scope of the recommendation. The Navy BRAC Program Management Office is
working with the OSD BRAC Office to document deviations from the May 2005
COBRA report and to update the proposed business plan.

Audit Response. We agree with the Navy comments that they used management
interpretations; however, we believe the Navy improperly used management
interpretations to exclude additional FTEs from realignment for
Recommendation 184. The Navy installation management used numerous
documents to dispute the BRAC Commission intentions to exclude functions from
realignment, which eliminated additional FTEs from realignment in the
installation submission for the business plan process. For example, NSWC Crane
management stated that because the BRAC Commission eliminated the program
management function under a similar recommendation, the intention was to
eliminate the function in BRAC 2005 Recommendation 184. Managers also used
point papers that stated the program management function at NSWC Crane was
erroneously included and realignment of this function would break synergies.
However, the BRAC Commission did not provide for the exclusion of this
function in the approved recommendation language.

Navy Comments on the Efficiency Reductions. The Deputy Assistant Secretary
of the Navy (Installations and Facilities) nonconcurred because only the
realigning functions at Port Hueneme were reduced by the 15 percent efficiency
factor. Also, the comparison in Table 5, “Application of 15 Percent Efficiency
Reduction at NBVC Port Hueneme” does not factor in the workload changes
associated with the realigning functions.

Audit Response. We disagree with the Navy comments because, during the site
visit, NBVC Port Hueneme installation management explained the process it
followed to arrive at the number of realigning FTEs. Installation management
said that it applied the 15 percent FTE reduction to the scenario data call FTEs,
rather than the realigning FTEs. Using this explanation, we determined that
NBVC Port Hueneme understated its realignment to NAWC China Lake by
44 FTEs.

NBVC Port Hueneme installation management did not apply a workload
adjustment to its realigning FTEs; that is why Table 5, “Application of 15 Percent
Efficiency Reduction at NBVC Port Hueneme” does not reflect a workload
adjustment. However, Port Hueneme management adjusted its realigning FTEs
for functions excluded by BRAC 2005 Recommendation 184 and essential
functions that the installation determined are inextricable. Both columns in
Table 5 reflect the reductions taken for the BRAC Commission-allowed function
exclusion and the installation management-determined inextricable/essential
function.




                                    18 

Navy Comments on Nonstandardized Time Periods. The Deputy Assistant
Secretary of the Navy (Installations and Facilities) concurred that NSWC Crane
used FTEs derived from FY 2004 data for their response to the scenario data call,
which was utilized in COBRA, prior to the data certification. However, the data
were reconciled to the FY 2003 capacity data calls to ensure they were well-
substantiated. Even though W&A RDAT&E FTE data for NSWC Crane have
remained unchanged in COBRA in the current business plan, the FTE data
contained in the business plan reflect Crane’s FY 2005 requirements.
Additionally, Port Hueneme’s business plan data have been updated to reflect
FY 2005 requirements.

Audit Response. We disagree with the Navy comments because, at the time of
our review, NSWC Crane management stated that it used December 2004 data to
complete the supplemental capacity data call. However, six of the seven Navy
realigned installations used FY 2003 personnel data when submitting responses to
the TJCSG scenario data call. Furthermore, NSWC Crane management used the
same December 2004 personnel data in its installation submittal for the business
plan process. Therefore, NSWC Crane management did not reflect personnel
adjustments from FY 2003 to FY 2005 in its installation submittal for the business
plan process.

Navy Comments on Nonstandardized Management Information Systems.
The Deputy Assistant Secretary of the Navy (Installations and Facilities)
concurred that a DoD management information system does not exist that
captures workload by the technical capability areas utilized by the TJCSG in
BRAC 2005. Throughout the entire BRAC process management judgment has
been recognized. Therefore, the Navy has consistently carried the approach of
using management judgment forward into the business plan development.

Audit Response. We agree with the Navy comments that a standardized
management information system across all commands did not exist; therefore, in
our opinion, tracking W&A FTEs by function was not feasible. The Navy used
managers’ technical judgments instead of a standardized management information
system. However, the Navy did not adequately document the use of managers’
technical judgments for the business plan process.

Navy Comments on the 15 Percent Efficiency Reduction. The Deputy
Assistant Secretary of the Navy (Installations and Facilities) nonconcurred. The
15 percent efficiency reductions were applied to the COBRA model which
generates savings. The Navy Comptroller for the President’s budget and the
business plan directed these savings and did not require further justification. The
President’s budget reductions are reflected in the business plan through the
15 percent efficiency reductions. The business plan mirrors the efficiency savings
reflected in the budget.

Audit Response. We disagree with the Navy comments because the TJCSG
Executive Director stated that the 15 percent efficiency reduction was used to
reflect consolidation of similar overhead functions and the elimination of
unnecessary billets/positions. The TJCSG believed that efficiencies would result
from the realignment of FTEs because of the BRAC recommendation. According
to the executive director, all Services agreed on the 15 percent efficiency factor.


                                    19 

The 15 percent efficiency factor was intended to be applied by the TJCSG and
therefore they did not instruct the sites to apply the efficiency factor. However,
according to the executive director, most sites applied the efficiency factor to
determine the reduction themselves and, in most cases, the TJCSG accepted that
application.

As reflected in the FY 2005 through FY 2007 President’s budgets, the Navy has
reduced the civilian workforce for NSWCs and NAWCs over the past 3 years.
Therefore, fewer FTEs exist to realign under BRAC 2005 Recommendation 184.
Additionally, the Navy reduced its W&A RDAT&E FTEs by 15 percent for the
efficiency factor, which was allowed by the TJCSG. It is our opinion that the
15 percent reduction in FTEs may be unnecessary. The Navy should consider the
reductions in the civilian workforce before considering additional efficiencies
gained by the realignment of W&A RDAT&E FTEs.

Navy Comments on Additional Information. The Deputy Assistant Secretary
of the Navy (Installations and Facilities) nonconcurred because BRAC 2005
Recommendation 184 does not contain an action to realign NSWC Yorktown
W&A RDAT&E FTEs to NAWC China Lake. All recommended W&A
RDAT&E realignment actions are addressed in the business plan and none are
neglected. The realignment of NSWC Yorktown W&A RDAT&E FTEs to
NSWC Indian Head was not an oversight by DoD or the BRAC Commission.
The recommendation to create a W&A RDAT&E center at China Lake was not
all inclusive and recognized that W&A RDAT&E functions would be retained at
other Navy sites and, in fact, relocated W&A RDAT&E functions to other Navy
sites as part of the recommendation.

Audit Response. We disagree with the Navy comments because BRAC 2005
Recommendation 184 realigns all W&A RDAT&E FTEs, except
gun/ammunition, underwater weapons, and energetic materials, from NSWC
Indian Head to NAWC China Lake. However, the recommendation also realigns
all W&A RDAT&E FTEs from NSWC Yorktown to NSWC Indian Head. If the
W&A RDAT&E FTEs from NSWC Yorktown are realigned to NSWC Indian
Head and subsequently excluded from realignment to NAWC China Lake, then
facilities no longer functioning at NSWC Indian Head will potentially be staffed.
Information provided on the Yorktown realignment is additional information only
and is not addressed specifically in the finding or recommendations.




                                    20 

Recommendations, Management Comments, and Audit
  Response
    1. We recommend that the Secretary of the Navy:

            a. Provide to the Secretary of Defense sufficient documentation to
    explain deviations from the August 3, 2005, Cost of Base Realignments and
    Actions report and update the proposed business plan to reflect corrections
    to the errors in civilian full-time equivalents to be realigned. In addition, the
    Secretary of the Navy should certify that the civilian full-time equivalents are
    realigned to meet the intent of the Base Realignment and Closure 2005
    Commission recommendation to create a Naval Integrated Weapons &
    Armaments Research, Development & Acquisition, Test & Evaluation
    Center at Naval Air Warfare Center China Lake.

            Navy Comments. The Deputy Assistant Secretary of the Navy
    (Installations and Facilities) concurred with Recommendation 1.a. The Navy
    BRAC Program Management Office is working with the OSD BRAC Office to
    properly document deviations from the May 2005 COBRA report in order to
    update the proposed business plan, and will certify that the civilian full-time
    equivalents are realigned to meet the intent of the BRAC 2005
    Recommendation 184. Through submission of the business plan, the Secretary of
    the Navy certifies that the plan meets the intent of the BRAC Commission.

            Audit Response. The Navy comments are responsive. The Navy BRAC
    Program Management Office should work with OSD to provide sufficient
    documentation to explain the deviations from the May 2005 COBRA report as
    directed by OSD. In addition, the Navy BRAC Program Management Office
    should update the proposed business plan to reflect corrections of the errors in
    civilian full-time equivalents realignment. Also, the Secretary of the Navy should
    certify that the civilian full-time equivalents are realigned to meet the intent of
    BRAC 2005 Recommendation 184.

           b. Consider the reduction in Navy civilian personnel over the last
    3 years before applying additional efficiency reductions.

            Navy Comments. The Deputy Assistant Secretary of the Navy
    (Installations and Facilities) concurred and stated that the Navy BRAC Program
    Management Office is working with the OSD BRAC Office and will update the
    proposed business plan by documenting deviations from the May 2005 COBRA
    report. The Navy BRAC Program Management Office will also certify that the
    civilian full-time equivalents are realigned to meet the intention of the
    Recommendation 184.

            Audit Response. Although the Navy concurred with the
    recommendation, we do not consider the comments responsive. We agree that the
    business plan should be updated to meet the intent of BRAC 2005
    Recommendation 184; however, Recommendation 1.b. states that the Secretary of
    the Navy should consider the reduction in Navy civilian personnel over the last
    3 years before applying additional efficiency reductions. The Secretary of the


                                        21 

    Navy should provide additional comments in response to the final report
    identifying specific actions taken to address this recommendation.

    2. We recommend that the Under Secretary of Defense for Acquisition,
    Technology, and Logistics consider the reductions in Navy civilian full-time
    equivalents and ensure that Navy officials correct the errors in civilian full-
    time equivalents to be realigned before approving the business plan.

            Navy Comments. Although not required to comment, the Deputy
    Assistant Secretary of the Navy (Installations and Facilities) provided the
    following comments on Recommendation 2. The Navy BRAC Program
    Management Office is working with the OSD BRAC Office and will update the
    proposed business plan by documenting deviations from the May 2005 COBRA
    report. The Navy BRAC Program Management Office will also certify that the
    civilian full-time equivalents are realigned to meet the intention of the
    Recommendation 184.

            Audit Response. The Under Secretary of Defense for Acquisition,
    Technology, and Logistics did not provide comments on a draft of this report.
    We request that the Under Secretary of Defense for Acquisition, Technology, and
    Logistics provide comments on the final report.


Management Comments Required
    The Under Secretary of Defense for Acquisition, Technology, and Logistics did
    not comment on a draft of this report. We request that the Under Secretary of
    Defense for Acquisition, Technology, and Logistics comment on the final report.
    In addition, the Navy should provide additional comments on
    Recommendation 1.b.




                                       22 

Appendix A. Scope and Methodology 

   We conducted this audit at the request of former Congressman William M.
   Thomas, Congressman Elton Gallegly, and Mayor Marshall “Chip” Holloway to
   review the 2005 Defense BRAC Recommendation 184, the purpose of which is to
   “Create a Naval Integrated Weapons & Armaments Research, Development &
   Acquisition, Test & Evaluation Center.”

   We obtained and evaluated the Navy’s April 2007 proposed implementation plan,
   also referred to by OSD as a business plan, for consistency with BRAC 2005
   Recommendation 184. Navy officials provided the audit team a draft copy of the
   proposed business plan in February 2007 for review prior to submitting the plan
   to OSD. In addition, we reviewed the Navy-proposed business plans from
   December 2005 and June 2006 for consistency with the BRAC Commission-
   approved recommendation.

   We reviewed approved BRAC 2005 Recommendation 184 and the associated
   August 3, 2005, COBRA report run by the TJCSG for the BRAC Commission.
   We reviewed the May 3, 2005, TJCSG COBRA report and associated
   documentation. We obtained and reviewed documentation provided by Navy
   realigning installations management for the initial TJCSG scenario data call that
   used FY 2003 through December 2004 data and the installation submittals for the
   business plan process that used FY 2003 through FY 2005 data, for the following
   installations at their respective locations: NAS Patuxent River, Maryland; NSWC
   Crane, Indiana; NBVC Point Mugu, California; NAWC China Lake, California;
   and NSWC Dahlgren, Virginia. We reviewed documentation for NSWC Indian
   Head, Maryland; NWS Seal Beach, California; and NSWC Yorktown, Virginia;
   at NSWC Indian Head, Maryland. We reviewed documentation for NBVC Port
   Hueneme, California; and Fleet Combat Training Center San Diego at Port
   Hueneme, California.

   We reviewed the President’s budgets for FY 2005 through FY 2007 to obtain the
   FY 2003 through FY 2005 civilian manpower reductions for the Naval Surface
   Warfare Centers and the Naval Air Warfare Centers.

   We focused our review on the civilian FTE data because the movement of
   contractor FTEs is at the discretion of the contractor, and the military FTEs
   change constantly based on workload and rotation.

   We attempted to trace W&A FTEs by compiling personnel data for the personnel
   identified in the TJCSG TECH 18D, also known as TECH 2, scenario data call as
   occupying a W&A position. The information included an employee name and
   billet number; however, the billet number does not designate whether the
   employee is performing W&A-related work. BRAC officials at the Navy
   realigned installations explained that an employee typically performs work in
   various functional categories. Therefore, W&A FTEs could not be traced by
   billet numbers or personnel records.




                                       23 

We analyzed financial data from FY 2003 and FY 2005 at the Navy installation
level to identify the FTEs attributed to funding for W&A-related functions.
However, the Navy does not capture financial data by both function and FTE. At
several locations, we attempted to use the FY 2003 and FY 2005 civilian
personnel count from the Navy installation’s financial data system to show a trend
in the decrease of personnel for that specific location. However, we were unable
to track W&A-related functions by using this data.

The audit team reviewed the Defense Technology Area Plan in which the
weapons technology area includes efforts devoted to armament and electronic
warfare technologies for all new and upgraded non-nuclear weapons. Our
Technical Assessment Directorate stated that the functions in question for
realignment to NAWC China Lake could not be determined without a lengthy
technical analysis.

We met with representatives from the Office of the Deputy Under Secretary of
Defense for Installations and Environment for BRAC, a representative from the
OSD Comptroller’s Office, Navy BRAC officials, and members of the TJCSG.
We met with Navy installation management at the locations visited. We also met
with former Congressman Thomas’s staff and Ridgecrest, California, officials, as
well as Congressman Gallegly and Ventura County, California, officials.

We conducted this audit from May 2006 through June 2007 in accordance with
generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our audit findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on our audit objective.

For this report, the audit scope was limited to the two congressional requests and
a mayoral request. The audit scope was also limited to a proposed business plan
review of civilian FTEs only; the audit team did not review the other elements
contained within the business plan. In addition, we based our conclusion on the
proposed business plan because, as of May 2007, DoD had not approved the
business plan. In addition, the Technical Assessment Directorate stated that a
lengthy technical analysis would be required to make a determination on the
exclusion of technical functions from realignment.

Use of Computer-Processed Data. The audit team reviewed and relied on
COBRA report data that were computer-processed. Assessing the reliability of
the COBRA model was beyond the scope of our review.

Government Accountability Office High-Risk Area. The Government
Accountability Office has identified several high-risk areas in DoD. This report
provides coverage of the DoD Approach to Business Transformation high-risk
area and the DoD Support Infrastructure Management high-risk area.




                                    24 

Prior Coverage
     During the last 5 years, the DoD Inspector General has issued one report
     discussing the Base Realignment and Closure 2005 Technical Joint Cross-Service
     Group recommendations. Unrestricted DoD Inspector General reports can be
     accessed at http://www.dodig.mil/audit/reports.

DoD Inspector General
     DoD Inspector General Report No. D-2005-086, “Technical Joint Cross-Service
     Group Data Integrity and Internal Control Processes for Base Realignment and
     Closure 2005,” June 17, 2005




                                       25 

Appendix B. Congressman William M. Thomas
            Request

  WILLIAM M. T H O M A S




                                          Congress ofTheUNITEDStates
                                              House of Representatives
                                                   Washington, DC

                                                       A p r i l 5, 2006




               M r , Thomas F. Gimble
               Acting Inspector General
               Department o f Defense
               400 A r m y N a v y D r i v e
               Arlington, V A 22202


               Dear M r . G i m b l e :


                        I am reluctantly contacting you to request a r e v i e w o f Base Realignment and
               Closure ( B R A C ) implementation at Naval A i r Warfare Center, Weapons D i v i s i o n , at
               China Lake in California. I have been a supporter o f the 2005 round o f B R A C as an
               independent and impartial means for the Department o f Defense ( D o D ) to reduce excess
               infrastructure and obtain greater efficiencies. H o w e v e r , I have recently received
               information that individuals within the Department o f the N a v y may be attempting to
               undermine the implementation o f the approved B R A C recommendations w i t h respect to
               China Lake as a receiving installation. T h u s , I request y o u r review o f this issue.


                        A s you know, Public L a w 101-510, as amended, established the legal basis and
               criteria for B R A C 2005. After an extensive deliberation process b y D o D to generate its
               proposals, the Defense Base Closure and Realignment Commission subsequently
               exercised a comprehensive independent review, which resulted in its recommendations to
               the President. T h e President accepted the Commission's recommendations and
               forwarded them to Congress, which affirmed the Commission's recommendations,
               resulting in the recommendations being currently implemented.


                          T h e recommendations, having the force o f law, state that there w i l l be an
               Integrated Naval Weapons & Armaments Research, Development & Acquisition, Test &
               Evaluation Center created at Naval A i r Warfare Center, Weapons D i v i s i o n , at China
               Lake. Missions, capabilities, and j o b s from multiple locations w i l l be consolidated at
               C h i n a Lake to save $349.5 million over twenty years, according to B R A C commission
               documents. T h e definition and scope o f the weapon and armament technologies,
               capabilities, functions, missions, and programs are clearly documented in the D o D
               Defense Technology Area Plan ( D T A P ) , and were used b y D o D to define functions to be
               realigned. H o w e v e r , I am informed that some individuals involved in implementation o f




                                                           26
the recommendations are trying to subvert the process and minimize the effect o f the
within the D o D D T A P definition. Additionally, other less obvious means to undermine
the decision are being employed such as simply changing the U n i t Identification Code
( U I C ) for billets slated for realignment but leaving them in place at their current location,
or the redefinition o f weapon w o r k into other categories not slated to realign. None o f
these practices are likely to result in any savings, but more importantly, w o u l d not be in
accordance with the law. It is imperative that this situation be thoroughly examined.



           In order to most comprehensively review the implementation plans, J request that
y o u seek input on this matter directly from the members o f the Technical Joint Cross
Service G r o u p ( T J C S G ) , the organization w i t h i n D o D w h i c h made the initial
recommendation to create this comprehensive center for N a v a l weapons development,
w h i c h Defense Secretary Rumsfeld approved i n the Pentagon's recommendations to the
B R A C commission i n Spring 2005. In addition, I request that you r e v i e w the N a v y ' s
proposed implementation plan f o r consistency with the T J C S G recommendations, D o D
D T A P definition o f weapons, and approved Commission decisions.


        I have been a strong supporter o f B R A C and believe that i f implemented in
accordance with both the letter and spirit o f the law, the process w i l l result in significant
savings and increased warfighting capabilities. K n o w i n g that the N a v y is drafting its
business plan for the implementation o f this recommendation, I look forward to your
timely, yet thorough, review o f this issue so that the business plan reflects the clear intent
of the                                                          law


                                        Best r                                                  egards,




                                        W I L L I A M M. T H O M A S
                                        Member o f Congress




                                             27
Appendix C. Congressman Elton Gallegly
            Request

    ELTON G A L L E G L Y
 24th DISTRICT, CALIFORNIA

                                      Congress of the United States
                                                   House of       Representatives

                                                   Washington,    DC   20515-0524



                                                           M a y 10, 2006

              M r . Thomas F. Gimble
              A c t i n g Inspector General
              Department o f Defense
              400 A r m y N a v y D r i v e
              A r l i n g t o n , V A 22202-4704
              Dear M r . Gimble:


                I am contacting y o u to request an audit o f the process being used within the
              Department o f Defense ( D o D ) to determine the number o f civil service positions that w i l l
              be realigned from Point M u g u and Port Hueneme to China Lake, California, in
              accordance with the Base Realignment and Closure ( B R A C ) law. I am requesting your
              help in ensuring that the positions planned for realignment arc those, and only those,
              required b y law,

                 D o D recommended, and the 2005 B R A C Commission approved, realigning Weapons
              and Armaments Research, Development, Acquisition, Test and Evaluation ( R D A T & E )
              functions from Point M u g u and Port Hueneme to C h i n a Lake. In forwarding its report to
              the President, the B R A C Commission specifically referenced the Weapons and
              Armaments realignment when it stated: " T h e Commission was not able to reconcile the
              large differences between the number o f affected personnel as proposed b y D o D w i t h the
              number o f personnel identified by the community, primarily the number o f people needed
              to support the Sea Range. T h e Commission urges the Secretary o f the N a v y , during the
              implementation process, to realign the Naval Integrated Weapons and Armaments
              R D A T & E functions for optimum effectiveness, rather than for narrow compliance with
              C O B R A personnel numbers."

                 I understand that y o u r office is currently reviewing and w i l l make recommendations on
              extent o f the realignment o f Weapons and Armaments personnel to C h i n a Lake. A s y o u
              conduct your r e v i e w , I would ask that you examine each o f the positions potentially
              affected b y the realignment and ensure that only those that are truly needed to establish
              the Weapons and Armaments center at China Lake are relocated. It is my understanding
              the rationale for realigning these positions should be based purely on their relevance to
              Weapons and Armaments functions, not on any preconceived notion o f the total number
              to be realigned. T h e B R A C Commission expressed considerable concern over D o D ' s
              C O B R A numbers relevant to Weapons and Armaments. 1 concur w i t h the Commission
              that the C O B R A numbers forwarded b y D o D are not mandated b y law. I am especially
              concerned that non-Weapons and Armaments positions in the Point M u g u Sea Range,
              Targets and Test Squadron organizations and in the Port Hueneme Weapons System
              Integration and Launcher organizations may be swept up in an effort, b y some, to




                                                                 28
M r , Thomas F. Gimble
Page T w o
M a y 10, 2006


maximize realignment numbers. A s you audit the numbers, I would request that you
apply as much scrutiny to the origin and fidelity o f the O f f i c e o f the Secretary o f
Defense, Technical Joint Cross Service G r o u p ' s originally recommended numbers as y o u
do to the N a v y ' s currently recommended numbers.

    1 am confident that a fair and impartial review o f the N a v y ' s B R A C realignment plan
w i l l : ( 1 ) Help determine the true number o f positions that are related to Weapons and
Armaments, (2) M i n i m i z e unnecessary disruption to those functions, including the Point
M u g u Sea Range, that are not part o f Weapons and Armaments, (3) M i n i m i z e
unnecessary costs to the taxpayers, ( 4 ) Maximize value to our warfighters, and (5) Ensure
D o D compliance with B R A C law.

  Thank you for y o u r assistance in this matter and 1 look forward to y o u r timely
response.



                                        Sincerely,




                                        ELTON GALLEGLY

                                        Member o f Congress




                                             29
Appendix D. Mayor Marshall Holloway
            Request


                                            City of Ridgecrest 

                                                       California 

                                     Office of Mayor Marshall "Chip" Holloway




    February 24, 2006




   Mr, Thomas F. Gimble
   Inspector General (Acting)
   400 Army Navy Drive
   Room 1000
   Arlington, V A 22202

    Dear Inspector General Gimble:

   A s Mayor I am writing on behalf of all selected representatives of the City of Ridgecrest. W e feel that it is essential
   that we highlight an issue grave importance to our community and the Naval Air Warfare Center Weapons Division,
   China Lake. As detailed in multiple recent press accounts, we are concerned that the spirit and intent of the Base
    Realignment and Closure (BRAC) aw S BEING undermined during Implementation. Citizens of our community are
   becoming increasingly aware of changes to the decisions that were made curing the earlier deliberation phase and
    subsequently implemented in aw. All of the proposed changes appear to BE part of a coordinated effort to undermine
   the realignment of functions to China Lake.

    During a recent all-hands briefing by the Commander of the Navel Air Systems Command (NAVAIR) at China Lake
   and Pt Mugu. information was presented that conveyed the appearance that N A V A I R was treating the BRAC
    decisions and law as advisory and was unilaterally making changes. Examples include removing functions and jobs
   that were included in approved realignment decisions and claiming they were NAVAIR decisions vs. B R A C issues.
   As you know, OUR community has a long and strong history of supporting, the Navy and has also supported the BRAC
   process. W e have invested heavily in the BRAC process to ensure that the Department of Defense (DoD) and BRAC
   Commission werei n f o r m e dof the positive attributes of our community and China Lake. 1: was clear from the BRAC
   deliberations and decisions that this effort, strongly aided by your efforts, was effective and was validated by the
   Commission's decision to create an Integrated Naval Weapons and Armaments R D A T S E Center of Excellence at
   China Lake. However, we are now seriously concerned that the decisions resulting from the detailed and objective
    BRAC deliberation processes will be undermined during implementation by a few individuals pursuing their own,
   agendas.

   We are seeking your support to ensure that the BRAC implementation process is consistent with both the letter and
   spirit of the law. Tha BRAC decisions were based on military value determinations and savings, and we are
   concerned that both will be l o s t if significant changes are made to the decisions. The deliberation phase concluded
   with the Commission and any effort by the services to unilaterally change those decisions now undermines the role of
   the Commission and Congress in this process. Therefore, we seek our support and that of others in Congress that
   want to maintain the integrity of the BRAC process and decisions. We can not let the military value gains and BRAC
   savings to be lost during a time when both are so critically needed by our nation and its war fighters because of the
   deliberate efforts of a few to undermine the law in the pursuit of their own parochial interests and biases.

   We understand that you are extremely busy and would not bother you with this issue if it were not of the utmost
   Importance to our community, China Lake, and our Navy.




    Marshall "Chip" Holloway
    Mayor
    City of Ridgecrest



                   100. West California Avenue • Ridgecrest,Caalifornia93555-*D5« • 7B0-taS-5000 • 7EO-499-15D0




                                                                30 

Appendix E. 	BRAC Recommendation 184:
             Create a Naval Integrated Weapons
             & Armaments Research,
             Development & Acquisition, Test &
             Evaluation Center
    Information contained in this appendix is a direct quote from the BRAC 2005
    Commission Report.

Secretary of Defense Recommendation
    Realign Naval Surface Warfare Center Crane, IN, by relocating all Weapons and
    Armaments Research, Development & Acquisition, and Test & Evaluation,
    except gun/ammo, combat system security, and energetic materials to Naval Air
    Weapons Station China Lake, CA.

    Realign Naval Surface Warfare Center Indian Head, MD, by relocating all
    Weapons and Armaments Research, Development & Acquisition, and Test &
    Evaluation, except gun/ammo, underwater weapons, and energetic materials, to
    Naval Air Weapons Station China Lake, CA.

    Realign Naval Air Station Patuxent River, MD, by relocating all Weapons and
    Armaments Research, Development & Acquisition, and Test & Evaluation,
    except the Program Executive Office and Program Management Offices in Naval
    Air Systems Command, to Naval Air Weapons Station China Lake, CA.

    Realign Naval Base Ventura County, Point Mugu, CA, by relocating all Weapons
    and Armaments Research, Development & Acquisition, and Test & Evaluation to
    Naval Air Weapons Station China Lake, CA.

    Realign Naval Weapons Station Seal Beach, CA, by relocating all Weapons and
    Armaments Research, Development & Acquisition, and Test & Evaluation,
    except underwater weapons and energetic materials, to Naval Air Weapons
    Station China Lake, CA.

    Realign Naval Surface Warfare Center, Yorktown, VA, by relocating all Weapons
    and Armaments Research, Development & Acquisition, and Test & Evaluation to
    Naval Surface Warfare Center Indian Head, MD.

    Realign Naval Base Ventura County, Port Hueneme, CA, by relocating all
    Weapons and Armaments Research, Development & Acquisition, and Test &
    Evaluation, except weapon system integration, to Naval Air Weapons Station
    China Lake, CA.




                                       31 

     Realign Fleet Combat Training Center, CA (Port Hueneme Detachment, San
     Diego, CA), by relocating all Weapons and Armaments weapon system
     integration Research, Development & Acquisition, and Test & Evaluation to
     Naval Surface Warfare Center Dahlgren, VA.

     Realign Naval Surface Warfare Center Dahlgren, VA, by relocating all Weapons
     & Armaments Research, Development & Acquisition, and Test & Evaluation,
     except guns/ammo and weapon systems integration to Naval Air Weapons Station
     China Lake, CA.


Secretary of Defense Justification
     This recommendation realigns and consolidates those facilities working in
     Weapons & Armaments (W&A) Research, Development & Acquisition, and Test
     and Evaluation (RDAT&E) into a Naval Integrated RDAT&E center at the Naval
     Air Warfare Center, China Lake, CA. Additional synergistic realignments for
     W&A was achieved at two receiver sites for specific focus. The Naval Surface
     Warfare Center, Dahlgren, VA, is a receiver specialty site for Naval surface
     weapons systems integration and receives a west coast site for consolidation.
     This construct creates an integrated W&A RDAT&E center in China Lake, CA,
     energetics center at Indian Head, MD, and consolidates Navy surface weapons
     system integration at Dahlgren, VA.

     All actions relocate technical facilities with lower overall quantitative Military
     Value (across Research, Development & Acquisition and Test & Evaluation) into
     the Integrated RDAT&E center and other receiver sites with greater quantitative
     Military Value.

     Consolidating the Navy’s air-to-air, air-to-ground, and surface launched missile
     RD&A, and T&E activities at China Lake, CA, would create an efficient
     integrated RDAT&E center. China Lake is able to accommodate with minor
     modification/addition both mission and lifecycle/sustainment functions to create
     synergies between these traditionally independent communities.

     During the other large scale movements of W&A capabilities noted above,
     Weapon System Integration was specifically addressed to preserve the synergies
     between large highly integrated control system developments (Weapon Systems
     Integration) and the weapon system developments themselves. A specialty site
     for Naval Surface Warfare was identified at Dahlgren, VA, that was unique to the
     services and a centroid for Navy surface ship developments. A satellite unit from
     the Naval Surface Warfare Center, Port Hueneme, San Diego Detachment will be
     relocated to Dahlgren.

     The Integrated RDAT&E Center at China Lake provides a diverse set of open-air
     range and test environments (desert, mountain, forest) for W&A RDAT&E
     functions. Synergy will be realized in air-to-air, air-to-ground, and surface
     launched mission areas.




                                         32 

    This recommendation enables technical synergy, and positions the Department of
    Defense to exploit center-of-mass scientific, technical and acquisition expertise
    with weapons and armament Research, Development & Acquisition that currently
    resides at 10 locations into the one Integrated RDAT&E site, one specialty site,
    and an energetics site.


Community Concerns
    The Naval Surface Warfare Center Crane, IN, community believed initial
    placement on DoD’s closure list precluded its consideration as a gainer. Their
    joint customer base and Army Ammunition plant tenant were not recognized as a
    joint transformation asset, and that separate evaluation as a technical and
    industrial facility unfairly disadvantaged them in comparison to large Research
    Development & Acquisition (RD&A) facilities. They argued their highly
    experienced work force helped them grow 20 percent per year since 2001, on one
    of the largest bases in the US with no encroachment problems. The combined
    recommendations for NSWC Crane would cost Martin County more than one-
    ninth of its jobs.

    The Indian Head, MD community claimed initial placement on DoD’s closure list
    precluded consideration as a “gainer,” and that the recommendation would be
    reasonable if energetics work from other commands, including China Lake and
    Picatinny, were brought to Indian Head. The Indian Head community concurred
    with DoD’s recommendations sending work to them, and strongly opposed
    proposed losses of workload.

    The Ventura County, Point Mugu, CA community claimed DoD’s data analysis
    and judgment of military value were poor and the recommendations would not
    enhance transformation and jointness. Most of the affected positions are not
    synergistic with the armaments and weapons work already at China Lake.

    They pointed out their range is a unique national asset, used by Air Force, Navy,
    Missile Defense Agency, other DoD, Foreign Military Sales, commercial
    activities and NASA, and that no synergy would be gained by realigning the Sea
    Range to China Lake. Basing range support aircraft at China Lake would require
    construction and increase operating costs. Some test facilities would take many
    millions of dollars to move and/or rebuild. NBVC’s intellectual capital took
    decades to develop. Few employees would move to China Lake, and therefore
    DoD’s proposal would risk major disruptions to mission effectiveness. They also
    disputed DoD’s cost estimates, questioning assumptions on the number of staff
    likely to relocate, the cost of sea range air support, and savings estimated for civil
    service personnel. They believe a 12-year payback period is more realistic than
    six years and that recurring savings will likely be less than half those estimated by
    DoD.

    The community speculated that the Coast Guard and Department of Homeland
    Security might expand their presence on Point Mugu, CA.




                                         33 

The Naval Weapons Station Seal Beach, CA, community noted that test and
calibration equipment need not be purchased for China Lake if Seal Beach
employees assist NSA Corona with calibration and other related work using
Corona-based equipment.

Some members of the Naval Surface Warfare Center, Yorktown, VA, community
said energetics work should be sent to Indian Head, and that a large percentage of
Virginia employees would likely make this move. They noted that Indian Head,
MD, would have been among the top three in most military value categories if the
number of military personnel had been included in the evaluation.

However, others in the Yorktown, VA, community said DoD’s recommendation
is seriously flawed and should be rejected. They claimed locally generated cost,
savings, and other data were changed or distorted at DoD to achieve the results
needed to support DoD recommendations. Reported savings depended on staffing
reductions unlikely to materialize as well as omitted or reduced implementation
costs in COBRA. Correction of obvious errors would result in a net cost of over a
million dollars, rather than a savings; and payback would stretch to over 20 years.
They also argued DoD’s recommendation would cause the Navy to lose
capabilities and crucial magazine space, therefore hindering future operations.

The Port Hueneme, CA, community contended DoD overstated savings, and
understated costs and the repayment period, including the additional costs
incurred from training replacement staff and moving the aviation support unit.
They said that savings are exaggerated by assuming 15 percent rather than GAO-
recommended 5.7 percent for personnel savings. Most of the recommendations
are Service-centric, contrary to DoD requirements for jointness and
transformation, and would compromise existing synergies of the base,
laboratories, and proximity to the Sea Range. They insisted operation of the Sea
Range from China Lake would be less safe and more expensive. The realignment
would result in significant losses of intellectual capital, adversely affect war
fighting capabilities, and waste hundreds of millions of dollars of taxpayer
money. They stated the Navy ignored requests for clarification of issues
involving personnel relocations and COBRA computed savings.

The Naval Surface Warfare Center Dahlgren, VA, community said this particular
recommendation conflicts with DoD’s other recommendation to establish
Dahlgren as a specialty site for Naval Surface Warfare, and would reduce military
value and impair Navy warfighting capability. Consolidation of “big gun”
RD&A and T&E at Picatinny Arsenal, NJ, would reduce the ability to engineer
and integrate shipboard combat systems. Single siting violates a TJCSG guiding
principal and, since Picatinny has neither big guns nor a test range, its
transplanted employees would have to make frequent trips back to Dahlgren.
Less than 20 percent of the educated, trained, and experienced engineering and
technical workforce can be expected to move from the region, resulting in a brain
drain.

According to the China Lake, CA, community, it was ranked highest in military
value for research, acquisition, and T&E and was ranked first in two of three
categories for Sensors/EW and Electronics. They argued that China Lake is the
best site for synergism and efficiency and it has a record of identifying key


                                    34 

    problems and creating effective, affordable solutions. Relocation of Point
    Mugu’s electronic warfare capability to China Lake would improve integration of
    the next generation combat aircraft. They fully support DoD’s recommendation
    to establish a full-spectrum, integrated RDAT&E center at China Lake. The
    community can and would provide needed utilities, good schools and affordable
    housing, and they stated the proposal would generate a relatively small increase
    from Ridgecrest’s 1990s-level population. China Lake has a high retention rate
    and over 80 percent of the NAWC China Lake retirees stay in the community.
    They agreed that the Sea Range is a critical joint service asset, with the only
    question being the number of Point Mugu staff needed to efficiently and
    effectively operate the sea range.


Commission Findings
    The Commission found that the issues and concerns raised about the
    recommendation did not rise to the level of a substantial deviation from the
    Selection Criteria or Force Structure Plan. For instance, the Commission
    determined that the potential loss of intellectual capital was not likely to be as
    serious as feared by the affected communities. Moreover, Commissioners found
    unconvincing the arguments by the Point Mugu community that after 13 years
    under the same Commanding Officer as China Lake, all possible duplication had
    been wrung out, therefore rendering a significant percentage of the anticipated
    savings unachievable. The Commission found instead that military value would
    be enhanced over the long run by bringing the teams working on these major
    armament projects into a single “center of excellence.”

    However, the Commission was not able to reconcile the large differences between
    the number of affected personnel as proposed by DoD with the number of
    personnel identified by the community, primarily the number of people needed to
    support the Sea Range. The Commission urges the Secretary of the Navy, during
    the implementation process, to realign the Naval Integrated Weapons and
    Armaments RDAT&E functions for optimum effectiveness, rather than for
    narrow compliance with COBRA personnel numbers.


Commission Recommendations
    The Commission found the Secretary’s recommendation consistent with the final
    selection criteria and the Force Structure Plan. Therefore, the Commission
    approves the recommendation of the Secretary.




                                        35 

Appendix F. Installation Submittals for the
             Business Plan Process

      Navy Installation Exclusions
      The Navy realigned installations submitted FY 2003 and December 2004 W&A
      RDAT&E FTE data for the initial TJCSG TECH 18D scenario data call. During
      the early stages of the business plan process, Navy officials directed the Navy
      realigned installations to provide updated FTE data based on FY 2003 through
      FY 2005 data. In the installation submittals, Navy management at the seven
      realigning installations excluded 1,867 FTEs,1 initially included in the TJCSG
      scenario data call, from realignment to NAWC China Lake2 for various reasons.
      See Table F-1 for types and number of FTE exclusions for the Navy installation
      submittals.


             Table F-1. FTE Exclusions for the Navy Installation Submittals

Types of Exclusions                                                                            FTEs

BRAC Commission                                                                                  208
Essential personnel/functions                                                                  1,091
Workload reduction                                                                               283
Interpretation of BRAC Commission                                                                 94
intentions
Mathematical errors                                                                               76
Managements’ adjustments                                                                          57
Fifteen percent reduction                                                                         56
Contractors                                                                                        2
 Total                                                                                         1,867


      _____________________________
      1
          FTE refers to civilian FTEs in this report.
      2
       The Navy’s proposed business plan FTEs for the NSWC Yorktown realignment to NSWC Indian
      Head and the Fleet Combat Training Center (Port Hueneme Detachment, San Diego) realignment
      to NSWC Dahlgren remained virtually unchanged from the initial scenario submission.
      Therefore, we excluded NSWC Yorktown and the Fleet Combat Training Center (Port Hueneme
      Detachment, San Diego) from discussion of the Navy installation submittals for the business plan
      process.




                                                        36 

BRAC Commission. The BRAC Commissioners excluded various W&A
RDAT&E functions from realignment to NAWC China Lake. Based on the
commissioners’ stated exclusions, Navy realigned installations management
excluded 208 FTEs, initially included in the TJCSG scenario data call, in their
installation submittals for the business plan process. The BRAC Commission
excluded the following functions from realignment:

       •	 Program Executive Office (NAS Patuxent River);

       •	 Program Management Office (NAS Patuxent River);

       •	 Energetic Materials (NSWC Crane, NSWC Indian Head, and NWS
          Seal Beach);

       •	 Combat Security Systems (NSWC Crane);

       •	 Gun/ammunition (NSWC Crane, NSWC Indian Head, and NSWC
          Dahlgren);

       •	 Underwater Weapons (NSWC Indian Head and NWS Seal Beach);
          and

       •	 Weapon System Integration (NBVC Port Hueneme and NSWC
          Dahlgren).

Essential Functions. Management at 5 of the 7 Navy realigning locations
excluded 1,091 essential FTEs from realignment to NAWC China Lake. DoD
requested in the TJCSG scenario data call that each of the Navy realigning
locations report FTEs that are within W&A, but are an inextricable part of a
specific function performed within the command. The Navy realigning
installations revised their exclusions in their installation submittals for the
business plan process to reflect FTEs performing the essential functions. As a
result, the FTEs submitted by the Navy realigning installations decreased by
1,091 from FY 2003 to FY 2005. See Table F-2 for FTEs excluded by Navy
realigning installations for essential functions.




                                    37 

  Table F-2. Navy Realigning Installations Essential Functions Excluded
                    for the Installations Submittals


 Navy Site                                                                           FTEs

 NBVC Point Mugu*                                                                      674
 NBVC Port Hueneme                                                                     291
 NAS Patuxent River*                                                                    67
 NSWC Dahlgren*                                                                         58
 NWS Seal Beach                                                                          1
  Total                                                                              1,091
 *We were not able to determine the number of FTEs for realignment attributed to BRAC
 Commission exclusions versus the number of FTEs for realignment attributed to essential
 functions for these locations.




Workload Reduction. Navy management at four of the seven realigning
installations reported a reduction in W&A workload from the time of the TJSCG
scenario data call to the time of the installation submittals for the business plan
process, resulting in a reduction of 283 FTEs for realignment to NAWC China
Lake. Navy installation management stated that managers used their technical
judgment to determine the reduction of FTEs. Therefore, the audit team cannot
verify the completeness and accuracy of the reduction. See Table F-3 for FTEs
excluded by Navy realigning installations for workload reductions.


  Table F-3. Navy Realigning Installations FTEs Excluded for Workload
               Reductions for the Installation Submittals

 Navy Site                                                                           FTEs

 NBVC Point Mugu                                                                       263
 NSWC Indian Head                                                                        8
 NWS Seal Beach                                                                          6
 NAS Patuxent River                                                                      6
  Total                                                                                283




                                         38 

Interpretation of BRAC Commission Intentions. NSWC Crane management
improperly applied the TJCSG meeting minutes, point papers, and other BRAC
recommendations to determine the BRAC Commission intentions. The BRAC
Commission did not exclude special missions, program management, and
sustainment of existing functions from realignment. However, NSWC Crane
management stated that the BRAC Commission intended to exclude these
functions from realignment to NAWC China Lake. As a result, NSWC Crane
management excluded 94 FTEs from realignment in its installation submittal for
the business plan process.

Mathematical Errors. Navy management at four of the seven realigning
installations had mathematical errors in the FTEs for realignment to NAWC
China Lake in their installation submittals for the business plan process. NBVC
Port Hueneme, NBVC Point Mugu, and NSWC Crane excluded an additional
77 FTEs in their installation submittals for the business plan process. Also,
NSWC Indian Head included 1 FTE in its installation submittals for the business
plan process. As a result, the Navy realigning installations excluded 76 FTEs in
their installation submittals for realignment to NAWC China Lake. See Table F-4
for FTEs excluded by Navy realigning installations due to mathematical errors.


       Table F-4. Navy Realigning Installations FTEs Excluded for 

          Mathematical Errors for the Installation Submittals 


 Navy Site                                                              FTEs

 NBVC Port Hueneme                                                         44
 NBVC Point Mugu                                                           23
 NSWC Crane                                                                10
 NSWC Indian Head                                                          -1
  Total                                                                    76



Management’s Adjustments. NSWC Crane management stated that the BRAC
Commission miscalculated the number of FTEs performing W&A RDAT&E at
NSWC Crane in the Commission Report. Therefore, NSWC Crane management
deducted an additional 53 FTEs from the BRAC Commission-excluded functions
for energetic materials and combat security systems in its installation submittal
for the business plan process. Additionally, NSWC Indian Head managers
excluded four administrative FTEs submitted by NWS Seal Beach, to reflect the
W&A movements to NAWC China Lake. As a result, Navy installation managers
excluded an additional 57 FTEs from realignment to NAWC China Lake in their
installation submittals for the business plan process.

Fifteen Percent Reduction. Management at Navy realigned installations
excluded FTEs from realignment for efficiency reductions gained through the
implementation of the recommendation, although the Navy already realized
reductions in FTEs from the President’s budgets. The TJCSG allowed the Navy


                                   39 

realigning installations to apply a 15 percent reduction to all civilian personnel
realigned by BRAC 2005 process. Navy managers at five realigning installations
updated the FTEs to reflect this reduction in their installation submittals for the
business plan process. Therefore, the Navy realigning installations excluded
56 additional FTEs from realignment to NAWC China Lake. See Table F-5 for
FTEs excluded by Navy realigning installations for the 15 percent reduction for
efficiencies.


  Table F-5. Navy Realigning Installations FTEs Excluded for Efficiency 

                Reduction for the Installation Submittals 


 Navy Site                                                                 FTEs

 NBVC Port Hueneme                                                            20
 NSWC Dahlgren                                                                17
 NSWC Crane                                                                   10
 NSWC Indian Head                                                              7
 NWS Seal Beach                                                                2
  Total                                                                       56



Contractors. NAS Patuxent River management erroneously included two
contractors associated with air platform activities with FTEs in the TJCSG
scenario data call. Therefore, NAS Patuxent River management excluded the
contractors from realignment to NAWC China Lake in its installation submittal
for the business plan process.




                                    40 

Appendix G. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Deputy Under Secretary of Defense, Installations and Environment
Under Secretary of Defense (Comptroller)/Chief Financial Officer

Department of the Navy
Assistant Secretary of the Navy (Installations and Environment)
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Naval Inspector General
Auditor General, Department of the Navy
Commander, Naval Installations Command
Naval Air Systems Command
Naval Sea Systems Command

Department of the Air Force
Auditor General, Department of the Air Force

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
  Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs,
  Committee on Oversight and Government Reform




                                          41 

Elected Officials
Honorable Kevin McCarthy, U.S. House of Representatives
Honorable Elton Gallegly, U.S. House of Representatives
Honorable Marshall Holloway, Mayor of Ridgecrest, California




                                         42 

Navy Comments 




                                       DEPARTMENT OF THE NAVY
                                       OFFICE OF THE ASSISTANT SECRETARY
                                        [INSTALLATIONS AND ENVIRONMENT)
                                              1000 NAVY PENTAGON
                                           WASHINGTON, D.C. 20350-1000



                                                                                         AUG 1 0 2007

     MEMORANDUM FOR DEPARTMENT OF DEFENSE INSPECTOR GENERAL
         (ACQUISITION A N D CONTRACT MANAGEMENT)

     Subj: R E S P O N S E T O C O M M E N T S O N D E P A R T M E N T O F D E F E N S E O F F I C E O F
           I N S P E C T O R G E N E R A L P R O J E C T N O . D2006-D000CG-0194.000 O F J U N E
            15,2007

     Ref:    (a) D O D IG M e m o of June 15, 2007

     Encl: (1) A S N (I&E) Response t o C o m m e n t s on N a v y Proposed Business Plan for Base
           Realignment and Closure 2005 Recommendation 1&4

     1. In accordance with reference (a), the enclosed responses to the subject project are
     provided. W e appreciate your review in support o f making this the best product possible.
     This response supersedes our previous m e m o r a n d u m on this subject dated July 3 0 , 2 0 0 7 .

     2. If you require further assistance, please contact Ms. Laura D u c h n a k at (619) 5 3 2 ­
     0M4.




                                                   Wayne            Arny
                                                   Deputy Assistant Secretary of the N a v y
                                                   (Installations and Facilities)




     C o p y to:
     NAVIG




                                                      43 

                        Comments to the DoD IG Draft Report 

    Assessment of Navy Proposed Business Plan for BRAC 2005 Recommendation 184 

                          (Proj # D2006-D000CG-0194.000) 




Specific comments:

1} Inadequate Documentation, Page 6 - Non-Concur

       All applicable data utilized in the BRAC planning process for Recommendation #184 has
       been made available to the DoD-IG, It's sufficiency for determining the extent to which
       the Navy's proposed Business Plan is consistent with the BRAC       Commission-approved
       recommendation requires that the data be considered within the proper context. The
       Navy relied on its best sources of information to both develop their initial responses and
       the succeeding Business Plans, The lack of systems that definitively track Weapons and
       Armaments FTEs of a portion of the total workload would have substantially enhanced
       the analysis, but that data was and is not available. The Navy BRAC Program
       Management Office is working with the OSD BRAC Office to properly document
       deviations from the May 05 COBRA Report and to update the proposed Business Plan,

2) Deviations in Numbers of Full Time Equivalents

       DoD IG Table 4 - Comparison of the Navy Realigned Installation Submittals for the
       Business Plan Process to the TJCSC Scenario Data Call, Page 11

       The DoD IG incorrectly mixes Scenario Data Call FTEs that do not contain the 15%
       efficiency reduction and the TJCSC exclusions as applied to the COBRA model with the
       Navy's Business Plan FTEs which incorporates both.

       Managers Technical Judgments of W&A RDAT&E, Page 11 - Concur

       Management internal controls are in place to support the proper execution of funded
       orders utilizing DoD and Navy recognized financial systems. These systems were not
       designed to capture workload data by the technical capability areas utilized by the
       TJCSG in BRAC 2005. The use of management judgment has been recognized in the
       entire BRAC process, and not just for this recommendation or for the Navy Business Plan
       development. However, the same approach that was applied to the BRAC data calls has
       been consistently carried forward into the Business Plan development. The sufficiency
      for determining the extent to which the Navy's proposed Business Plan is consistent with
       the BRAC Commission-approved recommendation requires that these judgments along
       with supporting documentation be considered within the proper context. The Navy BRAC
       Program Management Office is working with the OSD BRAC Office to properly
       document deviations from the May 05 COBRA Report and to update the proposed
       Business Plan.

       Interpretation of BRAC Commission Intentions, Page 12 - Concur



                                                1




                                              44 

 Management's interpretations of BRAC Commission intentions have been utilized with
 the determination that those interpretations were legally supportable by Navy BRAC
 counsel. Where the recommendation language used does not have a plain and
 unambiguous meaning but rather is a term of art developed to describe a given function
for the purposes of the 2005 BRAC process, it was determined appropriate to examine
 the underlying documents supporting the recommendation in an effort to clarify the scope.
  The Navy BRAC Program Management Office is working with the OSD BRAC Office to
 properly document deviations from the May 05 COBRA Report and to update the
proposed Business Plan.

Efficiency Reductions, Page 12 - Non-Concur

Port Hueneme's 15% efficiency was only applied to realigning functions as reflected in
the Budget and Business Plan. Additionally. Table 5 does not factor the workload
changes associated with realigning functions at Port Hueneme in the comparison,

Nonstadardized Time Periods, Page 13 - Non-Concur

While we concur that Crane did report FTEs based on FY04 data in response to the
scenario data call that utilized in COBRA, prior to the data being certified, it was
reconciled to FY03 Capacity Data Calls to ensure it was well-substantiated.      Even
though W&A RDAT&E FTE data for Crane has remained unchanged from COBRA in
the current Business Plan, the FTE data contained in Business Plan reflects Crane's
FY05 requirements. Additionally, Port Hueneme Business Plan data has been updated to
reflect FY05 requirements.

Non Standardized Management Information Systems, Page 14 - Concur

There is no DoD MIS that captures workload by the technical capability areas utilized by
the TJCSG in BRAC 2005, The use of management judgment has been recognized in the
entire BRAC process, and not just for this recommendation or for the Navy Business Plan
development. However, the same approach that was applied to the BRAC data calls has
been consistently carried forward into the Business Plan development.

Fifteen Percent Efficiency Reduction, Page 15 - Non-Concur

1) The 15% efficiency reductions were applied to the COBRA model to generate the 

    savings used to support the recommendation. These same savings were directed by 

    NAVCOMPT for the President's Budget and the Business Plan and did not require 

   further justification by the activities 

2) The 15% efficiency reductions in the Business Plan mirror the reductions contained 

    in the President's Budget and do not add to it. The Business Plan merely reflects 

    those efficiency Savings already contained in the budget for this BRAC 

    recommendathn 





                                         2




                                       45
       The Navy is seeking to become as efficient as possible through a variety of activities such
       as Lean Six SIGMA, productivity enhancement, etc. Optimizing the efficiencies offered
       by the realignments in this recommendation is part of that process. The latitude to re-
       scope the efficiencies consistent with projected work given by the TJCSG is positive and
       will be utilized as necessary as the Navy pursues it most efficient structure consistent with
       the BRAC recommendation and customer workload in Weapons and Armament.

       Additional Information, Page 16 - Non-Concur

       Recommendation # 184 contains no action to realign NSWC Yorktown W&A RDAT&E
       FTEs to NAWC China Lake. All recommended W&A RDAT&E realignment actions are
       addressed in the Business Plan and none are neglected. 2) The realignment of NSWC
       Yorktown W&A RDAT&E FTEs to NSWC Indian Head was not an oversight by DoD or
       the BRAC Commission. The recommendation to create a W&A RDAT&E Center at
       China Lake was not all inclusive and recognized that W&A RDAT&E functions would be
       retained at other Navy sites and, in fact relocated W&A RDAT&E functions to other
       Navy sites as part of the recommendation.



D o D I G Recommendations:

1. We recommend that the Secretary of the Navy:

        a. Provide to the Secretary of Defense sufficient documentation to explain deviations
from the August 3, 2005, Cost of Base Realignments and Actions report and update the proposed
Business Plan to reflect corrections to the errors in civilian full-time equivalents to be realigned.
In addition, the Secretary of the Navy should certify that the civilian full-time equivalents are
realigned to meet the intent of the Base Realignment and Closure 2005 Commission
recommendation to create a Naval Integrated Weapons & Armaments Research, Development &
Acquisition, Test Evaluation Center at Naval Air Warfare Center China Lake.

Concur - The Navy BRAC Program Management Office is working with the OSD BRAC Office
to properly document deviations from the COBRA Report (the May COBRA report as directed
by OSD for all Business Plans not Aug) in order to update the proposed Business Plan, and will
certify that the civilian full-time equivalents are realigned to meet the intent of the Base
Realignment and Closure 2005 Commission recommendation #184 By submission of the
Business Plan, the Secretary of the Navy is certifying that the plan meets the intent of the BRA C
law.

        b. Consider the reduction in Navy civilian personnel over the last 3 years before applying
additional efficiency reductions.

Concur - The Navy BRAC Program Management Office is working with the OSD BRAC Office
to properly document deviations from the May OS COBRA Report in order to update the
proposed Business Plan, and will certify that the civilian full-time equivalents are realigned to
meet the intent of the Base Realignment and Closure 2005 Commission Recommendation #184.



                                                  3




                                                46
2. We recommend that the Under Secretary of Defense for Acquisition, Technology, and
Logistics consider the reductions in Navy civilian full-time equivalents and ensure that Navy
officials correct the errors in civilian full-lime equivalents to be realigned before approving the
Business Plan,

Concur ­ The Navy BRAC Program Management Office is working with the OSD BRAC Office
to properly document deviations from the May 05 COBRA Report in order to update the
proposed Business Plan, and will certify that the civilian full-time equivalents are realigned to
meet the intent of the Base Realignment and Closure 2005 Commission Recommendation #134.




                                                 4




                                                47
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Acquisition and Contract Management prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Richard B. Jolliffe
Bruce A. Burton
Deborah L. Culp
Bobbie Sau Wan
Gwynne M. Roberts
Chasy L. Carbo
Kelly M. Olson
Matthew J. Purkiss
Colin E. Pingree
Meredith H. Johnson
